<html>
<title> - UNITED STATES EUROPEAN COMMAND</title>
<body><pre>[Senate Hearing 114-649]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-649
 
                     UNITED STATES EUROPEAN COMMAND

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
                               ________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-644 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
        
        
        
        


                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman      JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma             BILL NELSON, Florida
JEFF SESSIONS, Alabama                CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi          JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire           JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                 KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                  RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota             JOE DONNELLY, Indiana
JONI ERNST, Iowa                      MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina           TIM KAINE, Virginia
DAN SULLIVAN, Alaska                  ANGUS S. KING, JR., Maine
MIKE LEE, Utah                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                                     
                                     
                    Christian D. Brose, Staff Director                                   
                                     
                    Elizabeth L. King, Minority Staff Director
                                     
                                     
                                     
  
                                  (ii)

  
 

                           C O N T E N T S

                             March 1, 2016

                                                                   Page

United States European Command...................................     1

Breedlove, General Philip M., USAF, Commander, U.S. European          4
  Command and Supreme Allied Commander, Europe.

Questions for the Record.........................................    55


                                 (iii)
                                 
                                 


                     UNITED STATES EUROPEAN COMMAND

                              ----------                              


                         TUESDAY, MARCH 1, 2016

                                   U.S. Senate,    
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Reed, Nelson, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The Senate Armed Services Committee meets this morning to 
receive testimony on the security situation in Europe and the 
posture of the United States European Command. We are pleased 
to welcome back General Philip Breedlove, the Commander of the 
United States European Command and Supreme Allied Commander, 
Europe.
    General, this may be your last appearance before this 
committee. I hope not. So I want to take this opportunity to 
thank you for your decades of distinguished service to our 
country. Probably most distinguished was your tour of duty in 
Arizona, but anyway, I am very grateful for your candor in 
alerting Americans and Europeans alike to the threat posed by 
Russia, which is growing significantly worse. Unfortunately, 
you have sometimes been a lonely voice, but you have always 
been an impactful voice. This committee relies upon the candor 
of our Nation's senior military commanders. I believe your 
colleagues, as well as your successor, should profit from the 
example of your leadership. We certainly have.
    I would like to welcome your wife Cindy, a proud graduate 
of Arizona State University. She has been a strong advocate for 
Air Force and military families, especially concerning 
education. We are grateful to her and your three children for 
the sacrifices they have made over your many years of service.
    To the surprise of no one on this committee, it only took 
until the second day of the so-called ceasefire in Syria before 
Vladimir Putin resumed his airstrikes in support of the 
murderous Assad regime. I am sure Russia will say it has only 
targeted ``terrorists.'' While the administration and many 
others will likely express their ``concerns,'' I am sure they 
will preserve the agreement, regardless of the price to U.S. 
credibility and the cost to our partners on the ground.
    All of this comes as no surprise. We know why Mr. Putin 
agreed to a cessation of hostilities when he did. It is no 
accident that he violated that agreement when he did. This is 
the same movie we have been watching in Ukraine for 2 years: 
Russia presses its advantage militarily, creates new facts on 
the ground, uses the denial and delivery of humanitarian aid as 
a bargaining chip, negotiates an agreement to lock in the 
spoils of war, and then chooses when and where to resume 
fighting. This is diplomacy in the service of military 
aggression. It is working because we are letting it.
    In Ukraine and now in Syria, Putin has been learning that 
military adventurism pays. The only deterrence that we seem to 
be establishing is over ourselves. Indeed, 2 years after Russia 
invaded Ukraine and annexed Crimea, the administration has 
still not provided Ukrainian forces with the lethal assistance 
they need to defend themselves and which the Congress has 
authorized.
    Now we may be starting the cycle once again. In recent 
weeks, fighting in eastern Ukraine has intensified. Russian 
shelling and small-scale skirmishes have increased. Russian 
tanks have been moving to support the separatists, and Russian 
forces conducted a snap military exercise near Ukraine and the 
Caucasus in February. The ceasefire in Ukraine, which was 
coordinated to begin precisely as Russia readied its 
intervention in Syria, now appears increasingly tenuous. Of 
course, Russia still has not lived up to its obligations under 
the so-called Minsk II agreement. With the fighting in Syria 
capturing the headlines, Putin has succeeded in diverting 
international attention from his invasion of Ukraine.
    It is not that the United States and NATO have done nothing 
to respond to the challenge posed by Russia. It is that none of 
the actions we have taken thus far are adequate to the scope, 
scale, and seriousness of the challenges Russia presents to our 
national security and to the international order.
    Ultimately, the reason for maintaining a strong U.S. 
military presence in Europe is the same as it ever was: to 
deter conflict and prevent aggression. We must revisit the 
question of what it will take to achieve this goal when 
confronting a revisionist Russia that is undergoing significant 
military modernization and that is willing to use force not as 
a last resort, but as a primary tool to achieve its neo-
imperial objectives.
    In short, the United States and NATO need to prepare 
ourselves to deter and, if necessary, defeat Russian aggression 
whether it is in the nuclear, conventional, or hybrid domain.
    Vladimir Putin views nuclear weapons as an integral part of 
his strategy to reestablish Russian dominance in the former 
Soviet Union. To increase the credibility of NATO's nuclear 
deterrent, we must continue the ongoing modernization of U.S. 
nuclear forces and ensure that NATO's nuclear deterrent forces 
are survivable, well-exercised, and increasingly ready to 
counter Russian nuclear doctrine, which calls for the first use 
of nuclear weapons.
    As General Breedlove has pointed out, the current U.S. 
force structure in Europe and its underlying resourcing is 
predicated on the mistaken policy of what he terms ``hugging 
the bear.'' While some may try to argue otherwise, Putin is not 
a security partner. General Breedlove, we look forward to 
hearing what steps you think are required to rectify our force 
posture and resource deficiency in light of Russia's modernized 
conventional capabilities, especially in its anti-access/area 
denial network from Kaliningrad to Crimea to the Eastern 
Mediterranean Sea.
    In the realm of hybrid warfare, we are unfortunately 
playing catch-up. In areas such as information operations and 
cyber warfare, we have been bested by Putin's propaganda 
machine and his army of trolls and hackers. Again, under the 
misguided premise that Russia is a partner, we have let our 
intelligence on Russia's tactical and operational capabilities 
languish. This has made countering ``hybrid'' tactics through 
effective attribution all the more difficult.
    Finally, as we consider all of these important issues, it 
is important that we never forget the nature of the regime that 
threatens our security and the peace of Europe.
    This weekend marks the 1-year anniversary of the murder of 
Boris Nemtsov on a bridge in the shadow of the Kremlin. Boris 
was a friend to many of us. He was a Russian patriot who had 
the courage to tell the truth about the authoritarianism, 
rampant corruption, and imperial ambitions that are endemic to 
Putin's regime. Boris gave his life to tell these truths. We 
must honor his memory by resisting Vladimir Putin's dark and 
dangerous view of the world and by speaking up for the 
aspirations of so many Russians who still long for a future of 
opportunity, rule of law, and good relations with Europe and 
the United States.
    That is what 30,000 Russians did this Sunday, marching 
across Moscow in tribute to Boris chanting ``Russia will be 
free.'' That is our hope as well.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me join you in welcoming General Breedlove. Again, this 
could likely be your last hearing here. General, let me thank 
you also for your extraordinary to the Air Force and to the 
Nation and to thank Cindy for her service and the family. You 
have made us extraordinarily proud of all your efforts. Thank 
you, sir.
    The security landscape in your area of operations has 
undergone fundamental changes on many fronts. To the east, an 
aggressive Russia continues to violate international convention 
in an attempt to fracture the post-Cold War vision of a Europe 
that is whole, free, and at peace. To the south, Europe faces 
multiple threats to stability, including the ongoing conflicts 
in Syria, Iraq, and North Africa, the prospect of foreign 
terrorist fighters returning to your area of operations, and 
the overwhelming influx of refugees that shows little sign of 
abatement. In the far north, as the Arctic becomes increasingly 
accessible to international shipping traffic, Russia has 
intensified their military activity along the Northern Sea 
Route, in what may be seen as an attempt to militarize a region 
that should remain peaceful.
    To address this multifaceted security situation, your 
command recently released an updated EUCOM theater strategy. 
The strategy characterizes Russia as the most prominent and 
imminent security challenge, and it lists deterring Russian 
aggression as the top priority. This is a significant departure 
from past strategy documents. Despite these new realities, the 
U.S. force posture in Europe is still sized for a time when we 
viewed Russia through a much different set of lenses.
    The President's budget requests the European Reassurance 
Initiative is designed to address this new security paradigm. 
The ERI request would increase ongoing efforts to reassure 
allies and partners and focus more intently on deterrence 
measures. The predominant expenditures are for prepositioning 
equipment in Central and Eastern Europe and for the heel-to-toe 
rotational deployment of an armored brigade combat team. 
However, this force posture will only represent a fraction of 
the Cold War presence. General, the committee will be 
interested to hear your views on the appropriate size and shape 
of U.S. forces in Europe to effectively carry out these 
assurance and deterrence missions.
    ERI also provides funds for increased and expanded 
bilateral and multilateral exercises and additional efforts to 
build partner capacity. The committee will be interested to 
hear your views on how we can best assist our allies and 
partners to be capable and credible forces. We would also like 
to hear your views on what you believe these activities will do 
to help incentivize NATO members to fulfill their Wales 
commitment to achieve defense spending at 2 percent of their 
GDP in the coming years.
    In light of the hybrid warfare tactics used by Russia in 
seizing Crimea and secretly supporting separatist forces in the 
eastern Ukraine, it is critical that we have the proper 
capabilities to provide indications and warnings of Russian 
military activities. The committee will be interested to hear 
your views regarding the capabilities you need in order to 
provide early detection of Russian intents and actions.
    The Middle East conflicts and resultant refugee crisis in 
Europe is something unseen since the founding of the alliance. 
The security implications of the crisis are enormous, 
threatening to unravel a vision of Europe that has permeated 
the last 2 decades. While not specifically a military 
challenge, the committee will be interested to hear your views 
especially regarding the cooperation among allies and partners 
in addressing this instability and stemming the flow of foreign 
fighters that may be returning to Europe.
    General Breedlove, again, thank you for your service. We 
look forward to your testimony.
    Chairman McCain. Welcome, General Breedlove.

STATEMENT OF GENERAL PHILIP M. BREEDLOVE, USAF, COMMANDER, U.S. 
     EUROPEAN COMMAND AND SUPREME ALLIED COMMANDER, EUROPE

    General Breedlove. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thank you for the 
opportunity to testify before you today.
    I have had no greater honor in my 39-year career than to 
lead the soldiers, sailors, airmen, and marines, coast 
guardsmen, and civilians of the U.S. European Command. These 
remarkable men and women serve not only in the European theater 
but also in harm's way across the globe. I thank this committee 
for your continued support to them and their families.
    Representing those families and with me this morning is my 
wife Cindy. I would like to recognize her for her own 37 years 
of service.
    I am also honored to serve alongside the men and women in 
uniform of the nations of Europe. They are willing and capable. 
They play an essential role in helping to protect our own vital 
interests.
    The last time I addressed this committee, the security 
situation in Europe was complex. Since then, the situation has 
only grown more serious and more complicated. Today Europe 
faces security challenges from two directions.
    First, to the east, Europe faces a resurgent, aggressive 
Russia. Russia has chosen to be an adversary and poses a long-
term existential threat to the United States and to our 
European allies and partners. Russia is eager to exert 
unquestioned influence over its neighboring states in its 
buffer zone. So Russia has used military force to violate the 
sovereignty and territorial integrity of Ukraine, Georgia, and 
others like Moldova.
    In Ukraine specifically, Russia continues to use all 
elements of national power to hinder Kiev. We have recently 
seen an increase in the level of violence along the line of 
contact in the Donbass, as well as a number of diplomatic, 
economic, and propaganda efforts to keep Ukraine from moving 
closer to the West. The U.S. and other allies continue our 
effort to assist the Ukrainians reform their military and 
better train and develop Ukraine's service members. Russia uses 
snap exercises to mask real deployments and to desensitize us 
to that possibility. Russia has established anti-access/area 
denial environments, as you have labeled and I do as well, 
A2AD, in Kaliningrad, in the Black Sea, and most recently in 
the eastern Mediterranean Sea and western Syria, sharply 
constraining our access. Russia seeks to reestablish a leading 
role on the world stage.
    Russia does not just want to challenge the agreed rules of 
international order, it wants to rewrite them. Russia sees the 
U.S. and NATO as threats to its objectives and as constraints 
on its aspirations. So Russia seeks to fracture our unity and 
challenge our resolve. Russia recognizes strength and sees 
weakness as opportunity.
    To that end, Russia applies all instruments of national 
power, including its military, to coerce, corrupt, and 
undermine targeted European countries. Some call this 
unconventional warfare. Some call it hybrid. In the end, we see 
Russia using diplomatic, economic, and informational tools, in 
addition to military pressure, to shape and influence nations 
while trying to remain below triggering a military response.
    To the south, from the Levant through North Africa, Europe 
faces the daunting challenge of mass migration spurred by state 
instability and state collapse and masking the movements of 
criminals, terrorists, and foreign fighters. Within this mix, 
ISIL, or Daesh, is spreading like a cancer, taking advantage of 
paths of least resistance, threatening European nations and our 
own with terrorist attacks. Its brutality is driving millions 
to flee from Syria and Iraq, creating an almost unprecedented 
humanitarian challenge.
    Russia's entry into the fight in Syria has exacerbated the 
problem, changing the dynamic in the air and on the ground. 
Despite public pronouncements to the contrary, Russia has done 
little to counter Daesh but had a great deal to bolster the 
Assad regime and its allies. Together Russia and the Assad 
regime are deliberately weaponizing migration in an attempt to 
overwhelm European structures and break European resolve.
    All genuinely constructive efforts to end the war are 
welcome, but actions must speak louder than words.
    The war against Daesh hits home particularly hard for our 
close NATO ally Turkey, which shares borders with Syria and 
Iraq. Turkey faces its own internal threat from the PKK and it 
views the Syrian Kurdish opposition group, the YPG, as a close 
PKK affiliate. This prospect of YPG control of Syrian territory 
all along the Turkish border is unacceptable in Ankara. Further 
complicating the picture, sharply divergent interests in Syria 
have created a deep tension between Turkey and Russia. The 
risks of miscalculation or even confirmation remains credible.
    EUCOM is standing firm to meet this array of challenges. To 
counter Russia, working with allies and partners, we are 
deterring Russia now and preparing for conflict, if necessary. 
That demonstrated preparedness to defeat is an essential part 
of our deterrent message. In an ideal world, as a core element 
of deterrence, we would significantly bolster our permanent 
forward presence. In a resource-constrained environment, we are 
aiming for the appropriate mix of forward presence, 
prepositioned war stocks ready to be used if needed, and the 
ability to rapidly reinforce with troops coming from the 
continental United States. This means making sure we can 
accomplish our mission even when confronted with A2AD 
challenges.
    To counter Daesh, EUCOM is actively facilitating 
intelligence sharing and encouraging strong military 
relationships across ministries and across borders. To meet all 
real and potential challenges, EUCOM is a central part of U.S. 
leadership of the NATO alliance. As the Alliance continues its 
adoption through the Warsaw Summit, that includes increasing 
the readiness and responsiveness of the entire NATO force 
structure, improving our indications and warnings, or I&W, and 
sharpening our ability to make decisions at speed.
    This year's budget request reflects our solemn commitment 
to the security of our allies and partners and to protecting 
our homeland forward. EUCOM does not yet have the personnel, 
equipment, and resources necessary to carry out its growing 
mission, but the continuation of the European Reassurance 
Initiative, or ERI, would strongly support EUCOM's efforts to 
counter Russian aggression and other threats by closing gaps in 
our posture and resourcing. EUCOM has carefully planned and 
executed ERI funds you have authorized over the past 2 years, 
and we are thankful for those funds. We have done this even as 
our headquarters continues to shrink.
    This year's budget request would significantly increase 
ERI. That would let us deepen our investment in Europe along 
five key lines of effort: providing more rotational force, 
increasing training with our allies and partners, increasing 
prepositioned warfighting equipment in theater, increasing the 
capacities of our allies and partners, and improving the 
requisite supporting infrastructure. Together the tools ERI 
would provide would send a clear and visible message to all 
audiences of our strong will and resolve. Our further efforts 
to assure, deter, and defend supported by ERI would complement 
those of the entire whole of government team.
    EUCOM remains committed to a shared vision of a Europe 
while, free, at peace, and prosperous. As my military career 
draws to an end, Chairman, I want to thank you again for your 
unwavering support of the men and women of our armed forces and 
the opportunities that you all have given me to lead them. I 
now look forward to your questions.
    [The prepared statement of General Breedlove follows:]

             Prepared Statement by General Philip Breedlove
                            i. introduction
    As I arrive at the end of my assignment as both Commander of U.S. 
European Command (EUCOM) and Supreme Allied Commander for Europe 
(SACEUR), I have had no greater honor in my 39-year career than to lead 
the Soldiers, Sailors, Airmen, Marines, Coast Guardsmen and civilians 
of EUCOM. These remarkable men and women continue to serve not only in 
the EUCOM theater, but put themselves in harm's way across the globe 
and I thank this Committee for its continued support to them and all 
our nation's armed forces.
    I cannot overemphasize how important European nations, in 
particular our NATO Allies and non-NATO partners, are to ensuring 
America's security and safety. Many of our most capable and willing 
Allies and partners are in Europe, playing an essential role in 
promoting our vital interests and executing a full range of military 
missions. In this time of increasing military and strategic risk, we 
will continue to seize this opportunity to further strengthen the 
Transatlantic Alliance as EUCOM continues to experience unprecedented 
instability in an area of the world we once viewed as whole, free, 
prosperous, and at peace.
    Europe is not the same continent it was when I took command, as new 
threats and challenges continue to emerge. EUCOM's steady state 
operations, activities, and actions, alongside our European Allies and 
partners, are targeted at meeting these challenges to ensure our 
national security interests, including defending our nation forward 
from conventional, asymmetric, and even existential threats emanating 
from our Area of Responsibility (AOR).
    EUCOM continues to play a vital deterrence role, against state and 
non-state actors alike, in support of the U.S. military's larger global 
strategy. The forces forward deployed in this theater operate across 
Europe, the Middle East, and Africa. Likewise, the forward operating 
bases in Europe provide the U.S. Joint Force with essential access in 
the Mediterranean and the Levant, as well as North Africa and the 
Arctic.
    Our theater priorities and supporting activities in Europe fully 
support both the National Security and the National Military 
Strategies. First and foremost they support our national direction to 
counter malign Russian influence and aggression, as well as meet our 
enduring interests--the security of the United States; a strong U.S. 
economy; respect for universal values at home and abroad; and a rules-
based international order.
    However, it is not enough to simply have a strategy that supports 
our national security objectives; we also require resources in the 
theater necessary to accomplish these objectives. Since the release of 
the 2012 Defense Strategic Guidance and our national decision to 
rebalance to the Asia/Pacific region, EUCOM has paid a steadily 
increasing price in resources and assigned forces to help achieve 
rebalance. During the height of the Cold War, there were over half a 
million United States personnel assigned in the European theater. Today 
that number is around 62,000 permanent military personnel, of which 
52,500 are in direct support of EUCOM missions. The remaining personnel 
support the missions of other organizations, such as United States 
Africa Command (AFRICOM), United States Transportation Command 
(TRANSCOM), and NATO. EUCOM-assigned forces are now tasked with not 
only the same missions we have performed for the past several decades 
but with a substantial increase in our deterrence and reassurance 
operations in response to Russian occupation of Crimea and its 
aggression in eastern Ukraine, as well as requirements in the United 
States Central Command (CENTCOM) and AFRICOM AORs. EUCOM conducted 
Operation ATLANTIC RESOLVE (OAR), trained Ukrainian National Guardsmen 
and defense forces, provided resources in support of AFRICOM's counter-
Ebola mission and continued to provide critical support of CENTCOM's 
counter-ISIL mission. It is important to understand the critical roles 
these permanently stationed forces and bases play in this theater
    In response to the new European security environment, I have 
strongly advocated for, and our Defense Department, Administration, and 
Congress have supported, not only suspending further drawdown of this 
theater, but now the need to look at tailored, supportable increases in 
capabilities as we requested in the FY 2017 budget.
                         ii. theater assessment
    The United States and NATO face two primary threats to our security 
interests: Russian aggression and growing instability on our southern 
flank. Russia continues to foment security concerns in multiple 
locations around the EUCOM AOR. Concurrently, we deal with a variety of 
transnational threats that largely emanate from instability in Iraq, 
Syria, North Africa, and the rise of the Islamic State of Iraq and the 
Levant (ISIL). The U.S. and NATO must take a 360-degree approach to 
security--addressing the full-spectrum of security challenges from any 
direction and ensure we are using all elements of our nation's power.
A. Russia
    For more than two decades, the United States and Europe have 
attempted to engage with Russia as a partner by building military, 
economic, and cultural relationships. During the 1990s, Russia became a 
Partnership for Peace member with NATO, signed the 1994 Budapest 
Memorandum, and endorsed the 1997 NATO-Russia Founding Act. The text 
and tone of these instruments presumed Russia was a partner who shared 
our commitment to security, prosperity, and inclusive peace in Europe. 
With these Russian commitments, the Department of Defense made security 
and force posture determinations significantly reducing European force 
structure based on the assumption that Russia was a sincere partner and 
in 2009, the United States sought to ``reset'' its relationship with 
Russia, which had been damaged by Russia's 2008 invasion of the 
Republic of Georgia.
    Despite these and many other United States and European overtures, 
it is now clear Russia does not share common security objectives with 
the West. Instead, it continues to view the United States and NATO as a 
threat to its own security. Since the beginning of 2014, President 
Putin has sought to undermine the rules-based system of European 
security and attempted to maximize his power on the world stage.
    Russia continues its long-term military modernization efforts, and 
its recent actions in Ukraine and Syria demonstrate an alarming 
increase in expeditionary force projection and combat capability and 
logistical sustainment capacity. Russia has spent the past 20 years 
analyzing United States military operations and has established a 
doctrine and force to effectively counter perceived United States and 
NATO strengths. In examining the threats Russia poses to NATO and the 
United States, we should consider Russian actions comprehensively, 
taking into account their capabilities, capacities, and intentions.
    To the north: Arctic region.  Increased human activity is changing 
the way the United States, one of the eight Arctic nations, views the 
Arctic. EUCOM, along with our Allies and partners, is working to 
contribute to a peaceful opening of the Arctic. We strive to prevent 
and deter conflict, but we must be prepared to respond to a wide range 
of challenges and contingencies. We work with our Allies and partners 
to ensure the Arctic is a stable, secure region where U.S. national 
interests are safeguarded and the homeland is protected.
    Decreasing sea ice is increasing commercial and recreational 
activity in the high north. In the EUCOM AOR, shipping activity along 
the Northern Sea Route (NSR) is providing shorter alternatives for 
cargo. The unpredictability of weather and ice between seasons makes 
the Arctic a harsh environment for commercial shipping; however, the 
trend is clearly toward less Arctic ice and longer shipping windows.
    The eight Arctic states have a solid history of cooperation in the 
region. This includes the 2011 Arctic Search and Rescue Agreement, 
signifying an important step in Arctic cooperation. However, we cannot 
ignore Russia's increase in military activity which concerns all 
nations--not just those in the Arctic. Russia's behavior in the Arctic 
is increasingly troubling. Their increase in stationing military 
forces, building and reopening bases, and creating an Arctic military 
district--all to counter an imagined threat to their internationally 
undisputed territories--stands in stark contrast to the conduct of the 
seven other Arctic nations.
    Russia's improvements to Arctic settlements are ostensibly to 
support increased shipping traffic through the NSR. However, many of 
these activities are purely military in nature and follow a recent 
pattern of increasingly aggressive global posturing. We continue to 
encourage all of our Arctic partners to respect the broad and 
historical agreements against militarization of the high north and 
remain dedicated toward maintaining a peaceful opening of the Arctic.
    Under the United Nations Convention on the Law of Sea (UNCLOS), 
several Arctic states are submitting extended continental shelf claims. 
Joining the Convention would allow the United States to submit own our 
claims, promote U.S. interests in the environmental health of the 
oceans, and give the United States a seat at the table when rights 
vital to our national interests are decided. Cooperation among the 
Arctic states and adherence to the UNCLOS legal framework will deter 
escalation in the Arctic.
    To the east: Russia and periphery (Ukraine and Baltic States).  The 
Kremlin views the current situation in Ukraine as unsettled and a 
critical point of long-term friction. Russia's coercive use of energy 
has grown with threats and outright use of force. Eastern and Central 
European states, to include the Baltics, are concerned about Russia's 
intentions in Europe and consider Russia's aggression in Ukraine 
validation of their concerns.
    Russia's aggressive foreign policy toward Ukraine and the Baltic 
States amplifies a general sense of unease among NATO's eastern flank 
members, with tensions across the region, both inside and outside NATO, 
exacerbated by Moscow's illegal occupation of Crimea and direct support 
for combined Russian separatist forces in eastern Ukraine. Kremlin 
efforts to establish levers of influence in the Baltics across the 
diplomatic, economic, information, and security spectrum are meant to 
develop an environment favorable to Moscow and present an ongoing 
challenge to Western efforts aimed at assuring these NATO Allies.
    Russian use of Unresolved Conflicts as a Foreign Policy Tool.  
Describing the prolonged conflicts in states around the Russian 
periphery as ``frozen'' belies the fact that these are on-going and 
deadly affairs often manufactured by Russia to provide pretext for 
military intervention and ensures the Kremlin maintains levels of 
influence in the sovereign matters of other states.
    <bullet>  Georgia:  A clear purpose motivating Russia's invasion of 
Georgia in August 2008 was to prevent Tbilisi from pursuing its 
sovereign decision to become a full member of the European and 
transatlantic communities--a decision endorsed by NATO in the Bucharest 
Summit Declaration. In the aftermath of the 2008 war, Russia recognized 
Abkhazia and South Ossetia's independence, and Russia's military still 
occupies the regions. In an attempt to create additional obstacles to 
Georgia's Euro-Atlantic integration, Russia also signed so-called 
``treaties'' of alliance with Abkhazia and South Ossetia to increase 
its military, political, and financial control over these regions. 
Moreover, Russia has continued its policy of ``borderization'' along 
the Administrative Boundary Lines separating the two territories from 
the rest of Georgia by building fences and other physical barriers. In 
coordination with the de facto authorities in Abkhazia and South 
Ossetia, Russian border guards prevent freedom of movement of Georgian 
citizens into the territories and obstruct unfettered access for 
international and humanitarian organizations.
    <bullet>  In Moldova, Russian forces have conducted ``stability 
operations'' since 1992 to contain what is described as a separatist 
conflict in Transnistria. Moldova remains disappointed with Russia's 
continued political, economic, and informational support to the 
separatist regime. Most upsetting to Moldova is Russia's military 
presence (1,500 troops) on Moldovan territory, which is aimed at 
maintaining the status quo in the region. Moldova has two battalions 
(150 personnel each) and one company (120 personnel) permanently 
deployed on the peacekeeping mission in the security zone of the 
Transnistrian Region.
    <bullet>  Regarding Armenia and Azerbaijan, Russia is part of the 
Minsk Group process, aimed at resolving the Nagorno-Karabakh (NK) 
conflict. Despite this, Moscow has actually increased instability in 
the region by selling arms to Azerbaijan while maintaining a troop 
presence in Armenia. In fact, violence along the Line of Contact and 
the Armenia-Azerbaijan border has escalated significantly in the last 
two years, with 2015 being the deadliest year in the conflict since the 
ceasefire was signed in 1994. The complicated NK conflict is arguably 
the greatest impediment to the spread of peace and security through 
Europe to the Caucasus.
    Russia modulates these conflicts by manipulating its support to the 
participants, while engaging in diplomatic efforts in order to preserve 
its influence the affected regions. Just as the Soviet Union dominated 
the nations of the Warsaw Pact, Russia coerces, manipulates, and 
aggresses against its immediate neighbors in a manner that violates the 
sovereignty of individual nations, previous agreements of the Russian 
government, and international norms.
    Other unresolved conflicts in Europe require persistent attention 
to keep them from escalating. In the Balkans, Serbia's continued 
reluctance to recognize Kosovo's independence detracts from regional 
stability and security. Kosovo also struggles with interethnic tensions 
between Kosovo Serbs and Kosovo Albanians, while fledgling government 
institutions, unlawful parallel government structures, and a weak rule 
of law contribute to high levels of corruption, illicit trafficking, 
and weak border security. NATO's Kosovo Force, supported by EUCOM, 
plays an essential role in ensuring a safe and secure environment and 
freedom of movement and is respected by both Kosovo and Serbia.
    Russian Support to Syria.  Russia's military intervention in Syria 
has bolstered the regime of Bashar al Assad, targeted United States-
supported opposition elements, and complicated U.S. and Coalition 
operations against ISIL. The Syrian crisis is destabilizing the entire 
region, and Russia's military intervention changed the dynamics of the 
conflict, which may lead to new or greater threats to the U.S. and its 
Allies for years to come. Moscow's ongoing operations in Syria 
underscore Russia's ability and willingness to conduct expeditionary 
operations and its modernized military capabilities which are 
emboldening the Kremlin to increase its access and influence in a key 
geopolitical region.
B. Threats to European Allies and Partners
    ISIL and Other Threats Coming from the South. Numerous terrorist 
attacks have taken place in the EUCOM AOR over the past year, including 
the near simultaneous attacks in Paris that killed approximately 130 
people this past November, with several additional disrupted plots 
targeting U.S. forces and interests. Over the past 12 months, ISIL has 
expanded its operations throughout the EUCOM AOR, formally declaring an 
expansion of its self-declared ``caliphate'' into the Caucasus while 
conducting multiple attacks across the region. ISIL uses social media 
and online propaganda to radicalize and encourage European extremists 
to travel to Syria/Iraq or conduct attacks in their home countries. We 
anticipate additional European terrorist attacks in the future. From 
Paris to Copenhagen, Belgium to Turkey and the Caucuses, ISIL and al 
Qaeda inspired terrorists have conducted attacks that tear apart the 
fabric of free and democratic societies. These terrorists are not 
geographically limited to Europe. ISIL elements have conducted multiple 
attacks against European individuals and interests in North Africa 
including the Sinai. While we expect ISIL terrorists in North Africa 
will remain focused on internal issues in Africa in the near term, they 
may pose a greater threat to Europe should they achieve a safe haven in 
Libya or another North African country.
    Similar to ISIL, al Qaeda and its affiliates in the Middle East, 
North Africa, and Asia, such as al Qaeda in the Arabian Peninsula and 
al Nusrah Front, possess the ability to conduct mass casualty attacks 
against United States and Allied personnel and facilities in Europe. 
Complicating this picture are self-radicalized terrorists who, with 
little guidance from parent organizations, pose an unpredictable 
threat.
    Left- and right-wing politically inspired violence. Internal 
dissent also threatens our partners in Europe. As an example, leftist 
groups such as the Kurdistan Workers Party (PKK) and the Revolutionary 
People's Liberation Party/Front (DHKP/C) in Turkey remain a persistent 
threat to both the Turkish Government and United States interests. 
DHKP/C was responsible for the August 2015 small-arms attack outside 
the United States Consulate in Istanbul and the February 2013 suicide 
attack at the United States Embassy in Ankara.
    Refugee crisis. Europe is facing a historic refugee crisis as 
displaced persons, primarily from Syria, Afghanistan, Iraq, and 
unstable parts of Africa flee conflicts and attempt to reach Western 
European countries such as Germany and Sweden. Over 1 million refugees 
or economic migrants arrived in Europe in 2015, entering primarily in 
Italy and Greece with 2.6 million refugees residing in Turkey. These 
figures have trended upward for the past two years and will likely 
continue to rise in 2016 as the conflict in Syria continues.
    There is a concern that criminals, terrorists, foreign fighters and 
other extremist organizations will recruit from the primarily Muslim 
populations arriving in Europe, potentially increasing the threat of 
terrorist attacks. Also, local nationalists opposed to a large-scale 
influx of foreigners could become increasingly violent, building on the 
small number of attacks against migrant and refugee housing observed to 
date.
    The refugee crisis is tragic, and the nations in the European Union 
are taking steps and adding resources to increasing humanitarian 
assistance to conflict affected countries while expanding domestic 
security measures and pursuing diplomatic solutions to the growing 
problem and its root causes. EUCOM work with our interagency partners 
to monitor this humanitarian situation.
    Foreign Terrorist Fighters (FTF). Foreign terrorist fighters remain 
a key concern for EUCOM and our foreign partners. Over 25,000 foreign 
fighters have traveled to Syria to enlist with Islamist terrorist 
groups, including at least 4,500 westerners. Terrorist groups such as 
ISIL and Syria's al Nusra Front (ANF) remain committed to recruiting 
foreigners, especially Westerners, to participate in the ongoing Syrian 
conflict. The ability of many of these Europe-originated foreign 
fighters to return to Europe or the United States makes them ideal 
candidates to conduct or inspire future terrorist attacks.
    European Economic Challenges. The growing instability in Europe 
fueled by a revanchist Russia is occurring while most of the continent 
remains stagnated in a persistent financial crisis, anemic economic 
growth, and continued energy dependence. The Greek economic crisis that 
nearly led that country to leave the `euro zone' in the summer of 2015, 
is unfortunately indicative of the wide European debt crisis that at 
one time threatened the health of the European economy, which is 
unambiguously linked to the United States economy. Continued weak 
economic growth not only keeps unemployment rates high, specifically 
among young migrants susceptible to radicalization, it also hinders 
European countries' ability to increase defense spending, resulting in 
most NATO countries remaining below the two percent NATO benchmark. 
European continued dependence on Russian energy, specifically former-
Soviet and eastern-bloc states, only serves to bolster Russia's ability 
to coerce those nations to achieve political gains.
    Challenges for NATO. As NATO undergoes a profound historical 
change, it is both performing its core tasks of cooperative security, 
crisis management and collective defense and is recommitting to the 
basics, emphasizing Articles 3, 4, and 5 of the Washington Treaty.
    Article 3 commits Allies, through ``self-help'' and ``mutual aid,'' 
to develop ``their individual and collective capacity to resist armed 
attack.'' It reminds us that defense begins at home, that all members 
must contribute to collective defense, and that each nation has a 
responsibility to maintain their capability for their own defense. 
Poland is a good example of an Ally who has reformed its military 
structure and is modernizing its military to meet the security needs of 
both itself and NATO.
    Article 4, highlights the fact that Allies may consult together 
when the security of any of them is threatened. While it has only been 
invoked five times in the six decades since NATO's creation, spurred by 
events in Ukraine and Syria, three of those have come in the past four 
years. Aside from these Article 4 consultations, NATO practices 
consultation on an almost daily basis.
    Article 5 is the most known and understood Article and it 
emphasizes the responsibility of Allies to respond collectively to 
attacks on any member state. As declared by the Heads of State and 
Government at the Wales Summit, the events of the past two years have 
reminded us all of our responsibilities to each other and that ``the 
safety of our citizens and protection of territory is the foremost 
responsibility of our Alliance.'' In response to a changed security 
environment, NATO is adapting its processes, increasing its 
responsiveness and renewing its focus on collective defense by 
enhancing the Alliance's deterrence and defense posture, including 
increased awareness, resilience, readiness, solidarity, and engagement. 
Even so, additional work needs to be done to improve intelligence 
sharing and indicators and warnings among NATO members.
    NATO's ability to perform its core tasks is underpinned by the 
capabilities provided by each member state. It is publicly acknowledged 
by all Allies that defense spending, in support of the right 
capabilities, must increase. While there is much to be done by all 
Allies to ensure the needed capabilities are present for today's 
strategic environment, there are some promising trends. In 2015, 21 
Allies halted or reversed declines in defense investment as a 
percentage of GDP, and 24 halted or reversed declines in equipment 
investment as a percentage of defense investment. Five Allies met the 
2% of Gross Domestic Product guideline in 2015, compared to just three 
in 2013. Eight Allies allocated the NATO guideline of 20% or more of 
their defense budgets to equipment in 2015, up from four in 2013.
                     iii. executing eucom missions
    On any given day, EUCOM forces throughout Europe are engaged in a 
variety of activities to deter Russia, and counter the threats posed to 
our Allies and partners. These missions include: (1) training and 
exercising of our forces in order to be ready, if called upon, to 
conduct full spectrum military operations; (2) assuring our Allies of 
our commitment to collective defense; (3) training and collaborating 
with our NATO Allies and partners to maintain interoperability; and (4) 
working with our Allies and partners to effectively prepare for and 
support disaster relief operations.
    In addition to my responsibilities as a warfighting commander, I 
also often serve in the role of a supporting commander. EUCOM forces 
are ready to support the needs and missions of four other Geographic 
Combatant Commanders, three Functional Combatant Commanders, and 
numerous Defense Agencies. This includes the ability to appropriately 
base and provide logistics support functions to forces assigned to 
operations in the AFRICOM and CENTCOM areas of responsibility.
A. Deter Russia
    Russia's continued aggressive actions and malign influence remain a 
top concern for our nation and my highest priority as EUCOM Commander. 
The cease fire in eastern Ukraine remains tenuous at best, and Russia 
continues its destabilizing activities in direct contravention of the 
Minsk agreements. Russia also shows no signs of engaging in dialogue 
over its illegal occupation of Crimea, and seems intent on transforming 
this situation into a permanent redrawing of sovereign boundaries in 
Europe. While the United States and European nations have responded 
with diplomatic and economic sanctions, Russia continues its aggression 
in eastern Ukraine by providing personnel, equipment, training, and 
command and control to combined Russian-separatist forces. EUCOM, along 
with Allies and partners, continue to contribute to Ukraine's efforts 
to build its own defense capabilities, including providing training for 
Ukraine's armed forces. It also continues to destabilize countries 
throughout its periphery. We must not allow Russian actions in Syria to 
serve as a strategic distraction that leads the international community 
to give tacit acceptance to the situation in Ukraine as the ``new 
normal.'' Shortly after Russia's illegal occupation of Crimea, our 
immediate focus was on assuring our Allies, through Operation ATLANTIC 
RESOLVE, of our steadfast commitment to NATO's Article 5 provision on 
collective defense. Now that we are nearly two years into this 
operation, our efforts are adding a deterrence component with the goal 
of deterring Russia from any further aggressive actions. These 
supporting roles tax the capacity of EUCOM's assigned forces, straining 
our ability to meet other operational requirements.
    As the Department continues to refine a holistic United States-
Russia defense strategy, events in Europe continue to evolve. As a 
result of emergent requirements, EUCOM has undertaken a number of 
assurance and deterrence measures that will continue throughout 2016 
and are greatly expanded in the fiscal year (FY) 2017 Budget request.
    European Reassurance Initiative (ERI).  ERI continues to provide 
the additional funding that allows us to increase our assurance 
activities throughout the EUCOM AOR. EUCOM believes that the strategy 
of assuring our NATO Allies and Partners while seeking to deter Russia 
from further aggression, as undertaken by the Department, through ERI 
has significantly helped EUCOM with the dynamic security challenges 
within the AOR. We are grateful for the strong congressional support of 
this initiative that reassures and bolsters the security and capacity 
of our NATO Allies and partners. With your continued support, we will 
use FY17 ERI request to expand deterrence measures against Russian 
aggression. As an example of assurance measures, the U.S. Army deployed 
an Armored Brigade Combat Team (ABCT) set of equipment (known as the 
European Activity Sets (EAS)) to the European theater. EUCOM is 
currently distributing Company and Battalion sized elements of the 
equipment along NATO's eastern border. This equipment is used by the 
Army's regionally aligned force personnel for the purpose of training 
and exercising with our Allies. Storing and maintaining EAS equipment 
in this manner helps reduce transportation time and costs and reassures 
Allies and partners in the region of our steadfast commitment.
    With the FY17 ERI submission, EUCOM supports the Army's effort to 
increase Army Prepositioned Stocks (APS) unit sets to increase 
deterrence. This set of equipment helps shorten the response time in a 
time of crisis. EUCOM plans to use existing infrastructure for APS unit 
set storage and maintenance to the maximum extent possible, to include 
former locations used by the United States for this purpose. New 
locations, however, may be needed given the 80% reduction of European 
infrastructure over the past 25 years and NATO's expansion along its 
eastern boundary.
    The United States, along with its NATO Allies, will continue to 
take actions that increase the capability, readiness, and 
responsiveness of NATO forces to address any threats or destabilizing 
actions from aggressive actors. Over the last 15 months we have helped 
NATO members better defend themselves, along with non-NATO partners in 
the region, who feel most threatened by Russia's actions against 
Ukraine. Continued congressional support sends a clear message to the 
Russian leadership the United States is wholly committed to European 
security.
    Reassurance Measures.  Operation ATLANTIC RESOLVE supports the 
mission to assure and defend NATO, enhance our Allies' and partners' 
abilities to provide their own security, and deter further Russian 
aggression. EUCOM engagement, training, exercise, and cooperative 
activities will continue to support enabling regional cooperation with 
our Allies and partners to address the challenges on Europe's eastern 
and southern flanks, and the threats emanating from and within Europe. 
These activities will enable the timely generation of fit for purpose 
forces, capable of addressing common and collective security challenges 
within Europe.
    Russia Strategic Initiative (RSI).  A Russia staunchly committed to 
challenging international norms is not just a EUCOM security challenge, 
but a challenge for the entire Department of Defense. We need look no 
further than its ongoing intervention in Syria and the serious 
operational implications it presents CENTCOM. Accordingly, we are 
addressing this threat collectively across numerous Combatant Commands 
through the Russia Strategic Initiative (RSI). RSI provides the 
Combatant Commanders a framework for understanding the Russian threat 
and a forum for integrating and coordinating efforts and requirements 
related to Russia. RSI allows us to confront this immediate threat to 
ensure we maximize the deterrent value of our activities without 
inadvertent escalation. RSI also provides DOD an avenue to analyze the 
Russia problem set across the interagency, academia, and think tanks 
for broad perspectives on an extremely complex problem.
    Strategic Messaging and Countering Russian Propaganda.  EUCOM's 
strategic communications, information operations (IO), and related 
influence capabilities such as Military Information Support Operations 
(MISO) are the most powerful tools EUCOM has to challenge Russian 
disinformation and propaganda. Russia overwhelms the information space 
with a barrage of lies that must be addressed by the United States more 
aggressively in both public and private sectors to effectively expose 
the false narratives pushed daily by Russian-owned media outlets and 
their proxies. As part of the FY17 ERI request, EUCOM has requested the 
authority and appropriation to conduct IO. EUCOM will continue to 
increase its collaboration with Department of State, other agencies, 
partners, and Allies in order to effectively engage select audiences 
and counter malign actions and activities.
B. Support to Allies and Partners
    Support to NATO.  EUCOM is the visible symbol of the United States' 
commitment to the NATO Alliance. The Command serves as a key agent to 
build capabilities and conduct NATO operations. EUCOM will continue to 
support regional cooperation with our Allies to address the challenges 
within Europe as well as those coming from its eastern and southern 
flanks, enabling the generation of forces capable of addressing common 
and collective security challenges.
    The Allies' commitment under Article 3 of NATO's Washington Treaty, 
with its dual principles of ``self-help and mutual aid,'' provides the 
basis of EUCOM's security cooperation in support of NATO. EUCOM is a 
key enabler for the Alliance's unique and robust set of political and 
military capabilities to address a wide range of crises before, during, 
and after conflicts. EUCOM assists Allies in building security 
capacities, command and control, interoperability, and deployability to 
provide their own internal security, contribute to regional collective 
security, and conduct multilateral operations.
    EUCOM also supports NATO's actions with crisis management, 
operations and missions. With the invocation of Article 4 consultations 
by Turkey and Poland in recent years, EUCOM has worked with other 
Allies through OAR, theater security cooperation programs, and air 
defense support to Turkey to provide a tangible Alliance response.
    U.S. support to the continued implementation of NATO's Readiness 
Action Plan (RAP) is essential for a credible Article 5 deterrence. The 
RAP contains new operations plans, an enhanced NATO Response Force with 
quicker deployment times and assigned forces, new authorities for 
SACEUR, and an improved NATO command structure. The U.S. pledge to 
contribute key enablers is critical to the success of the Very High 
Readiness Joint Task Force (VJTF), while seven Allies (France, Germany, 
Italy, Poland, Spain, Turkey, and the United Kingdom) have committed to 
provide the lion's share of land force contributions. EUCOM has also 
continued its support to other key aspects of the RAP, including 
maintaining continuous presence in the eastern portions of NATO, 
establishing prepositioned supplies and equipment, enhancing the 
capabilities of NATO's Multinational Corps North East and Multinational 
Division South East, and the establishment of a NATO command and 
control presence on the territories of eastern Allies. Continued U.S. 
support on all of these efforts is essential to ensuring Allied 
cohesion and capability to meet our collective Article 5 commitment.
    Missile Defense in Europe.  EUCOM continues to implement the three 
phases of the European Phased Adaptive Approach (EPAA) and deepen our 
missile defense partnerships and assurances within NATO. Phase 2 of the 
EPAA, the first Aegis Ashore Missile Defense System (AAMDS), which is 
located in Deveselu, Romania, will provide enhanced medium-range 
missile defense capability, to expand upon Phase 1, which has been 
operational since 2011. While EUCOM has benefited tremendously from the 
Phase 1 forward deployment of four Aegis ballistic missile defense 
(BMD) capable surface ships to Rota, Spain, this capability is greatly 
enhanced by the on-schedule completion in December 2015 of the AAMDS 
site in Romania, the final building block of Phase 2. EUCOM is working 
to certify the site's capability and ensure its interoperability with 
NATO command and control systems. To validate this construct, EUCOM and 
our NATO Allies will be conducting test and evaluation exercises, and 
we look forward to certifying our command and control interoperability, 
and delivering the key capability to NATO.
    As we complete the work on Phase 2, EPAA Phase 3, which includes 
the second AAMDS at Redzikowo, Poland, is on track for completion in 
the 2018 timeframe. The basing agreement is complete and was ratified 
by the Polish Parliament by an overwhelming majority. The implementing 
arrangements are progressing on schedule, meeting both U.S. and Polish 
expectations, and Poland continues to invest heavily in preparing for 
the AAMDS deployment. Building upon Phase 1 and 2, the AAMDS site in 
Poland will support EUCOM plans and operations and represent the U.S. 
voluntary national contribution to NATO's missile defense of European 
populations, forces, and territory.
    Within NATO, EUCOM is working with key Allies such as Spain and the 
Netherlands who continue to invest in air and upper tier ballistic 
missile defense, and are considering investment in capabilities which 
complement the U.S. Aegis ballistic missile defense capability. Another 
shared concern is defense of the Aegis Ashore sites.
    To support other key allies, United States Army Europe's 10th Area 
Air Defense Command and 5th Battalion 7th Air Defense Artillery 
Regiment have been doing yeoman's work in their deployments to Turkey 
and supporting engagement and exercises with NATO, Poland, Germany, 
Romania, Israel, and many other nations. As their strikes in Syria have 
made clear, Russia presents a robust potential threat across the range 
of ballistic and cruise missiles from land, sea, and air. EUCOM 
requires the ability to protect our headquarters, bases, and forces. 
Since BMD forces worldwide are strained, EUCOM has diligently engaged 
with our Service components, fellow combatant commands, the Missile 
Defense Agency, and the Joint Staff to find solutions and drive future 
capability deliveries to address current and future threats. We ask for 
continued Congressional support in these efforts.
    Cyber Operations.  Emerging threats to national security, spurred 
by the global diffusion of information, advancements in technology, and 
a rapidly changing operational environment are impeding both U.S. and 
our Allies' ability to operate freely in the cyber domain. Both state 
and non-state actors have offensive cyber capabilities that can disrupt 
and damage weapon systems, platforms, and infrastructure throughout our 
AOR. Non-state actors are seeking to develop capabilities to conduct 
sophisticated cyber-attacks in the future and will likely pose an 
increasingly dangerous threat to our forces.
    Our theater cyberspace supporting strategy is the foundation of all 
cyber operations in the EUCOM AOR and enables us to integrate cyber 
operations with the other warfighting domains to achieve campaign 
objectives. Among the Command's top priorities are the full 
implementation of Joint Information Environment (JIE) and a Mission 
Partner Environment (MPE). JIE is DOD's initiative to address the 
security, effectiveness, and efficiency challenges of the current and 
future Information Technology (IT) environment. MPE is DOD's initiative 
to enable operations with allies and other partners, both inside and 
outside of the DOD, in support of ongoing and future operations. While 
much more work must occur, EUCOM is already beginning to reap the 
benefits of these initiatives to enhance our mission effectiveness, 
improve cyber security and reduce risk to missions and our forces.
    Nuclear Deterrence and Weapons of Mass Destruction (WMD).  The 
supreme guarantee of Alliance security is provided by its strategic 
nuclear forces, particularly those of the United States. EUCOM 
collaborates closely with U.S. Strategic Command to assure Allies of 
the U.S. commitment to the Alliance, including, for example, bomber 
assurance and deterrence missions. NATO's 2010 Strategic Concept, 2012 
Deterrence and Defense Posture Review, and 2014 Wales Summit 
Declaration all affirmed that deterrence, based on an appropriate mix 
of nuclear, conventional, and missile defense capabilities, remains a 
core element of our overall strategy, and that ``as long as nuclear 
weapons exist, NATO will remain a nuclear alliance.'' Consistent with 
NATO's commitment to the broadest possible participation of Allies in 
the Alliance's nuclear sharing arrangements, EUCOM maintains a safe, 
secure, and effective theater nuclear deterrent in support of NATO and 
as an enduring U.S. security commitment within the EUCOM AOR. Through 
rigorous and effective training, exercises, evaluations, inspections, 
operations, and sustainment, EUCOM ensures that U.S. nuclear weapons 
and the means to support and deploy those weapons are ready to support 
national and Alliance strategic objectives.
    WMD in the hands of a state or non-state actor, continue to 
represent a grave threat to the United States and the international 
community. Through our Countering WMD Cooperative Defense Initiative 
Program, EUCOM executes bilateral, regional, and NATO engagements to 
bolster our collective capability to counter the proliferation of WMD 
(and their precursors) and mitigate the effects of a WMD event.
    Foreign Fighters.  The flow of returning foreign terrorist fighters 
to Europe and the United States poses a significant risk to our 
European forward-based forces and the homeland. Actively encouraged by 
ISIL, returning foreign terrorist fighters are mounting attacks, a 
problem that will magnify as the flow of returning individuals 
increases over time.
    Our Allies and partners share these concerns. EUCOM works in 
conjunction with the Department of State, AFRICOM and CENTCOM to 
monitor and thwart the flow of foreign fighters going to and from Syria 
and the Levant, dismantle extremist facilitation networks, and build 
partner nation capacity to counter the flow of foreign fighters on 
their own. We are pursuing efforts bilaterally, regionally, and within 
a NATO construct to reduce the potential for successful terrorist 
attacks within EUCOM and at home. USAREUR has created a program called 
WOLFSPOTTER whereby they integrate various intelligence feeds and share 
those effectively with partners to assist in the identification of 
``lone wolf'' actors more effectively.
    Foreign Military Sales (FMS). Foreign Military Sales benefits not 
only interoperability with our Allies and partners, but also our 
defense industrial base, with defense articles and services totaling 
well over $5 billion per year in the European theater. From Israel to 
the Arctic, our FMS programs are improving Alliance capabilities and 
meeting the challenges associated with meeting NATO's capability 
targets.
    FMS offers opportunities for the United States to improve the 
trends in European capability acquisition. Our Allies and partners 
understand the quality of our FMS program in comparison with other 
sources of defense articles and services, and seek ways to acquire our 
defense articles while balancing the requirements of the European Union 
and offers from other sources. Recognizing the quality we offer comes 
with a high price tag, EUCOM encourages our partners to engage in 
shared FMS actions by pursuing multi-national and multilateral FMS 
solutions in order to reduce costs for participants and provide 
opportunities to pool and share resources, increasing NATO capabilities 
across the theater.
    EUCOM appreciates the various Congressionally-authorized Building 
Partner Capacity (BPC) programs which engage the FMS infrastructure to 
provide defense articles and services more quickly than traditional 
FMS, as illustrated by our actions in the Baltics and Ukraine. These 
BPC processes are benefitting the readiness, capability, and 
interoperability of nearly all of our partners in Central and Eastern 
Europe.
C. EUCOM Support to NATO in Afghanistan
    The continued operational and financial support of NATO and other 
partners is a crucial pillar of building sustainable security in 
Afghanistan. NATO has transitioned from International Security 
Assistance Force (ISAF) to the RESOLUTE SUPPORT Mission (RSM). Our 
European Allies and partners continue to bear the burden of providing 
the bulk of forces, second only to the United States. As we conduct 
RSM, EUCOM will continue to prepare our Allies and partners for 
deployments to support the train, advise, and assist mission. 
Authorities such as Global Lift and Sustain, ``Section 1207'' (loan of 
certain U.S. equipment to coalition partners), 10 USC 2282 (global 
train and equip authority), and the Coalition Readiness Support Program 
are absolutely essential for EUCOM to provide Allies and partners with 
logistical support and continued interoperability with U.S. and NATO 
forces. These authorities allow countries to receive much needed 
equipment such as intelligence, surveillance, and reconnaissance 
assets; interoperable communications gear; counter-IED and explosive 
ordinance disposal equipment; medical equipment; and night vision 
devices; as well as training to effectively use the equipment.
D. Assistance to Israel
    A continued deterioration of security in the Levant region is a 
threat to the stability of Israel and neighboring countries. With 
limited warning, war could erupt from multiple directions with grave 
implications for Israeli security, regional stability, and United 
States interests.
    EUCOM primarily engages with Israel through our Strategic 
Cooperative Initiative Program and numerous annual military-to-military 
engagements that strengthen both nations' enduring ties and military 
activities. The United States-Israel exercise portfolio includes major 
bilateral exercises and continued engagement resulting in renewed and 
strengthened United States-Israeli military and intelligence 
cooperation relationships. Through these engagements, our leaders and 
staff maintain uniquely strong, frequent, personal, and direct 
relationships with their Israeli Defense Force counterparts.
    The direct threat to Israel by ballistic missiles and rockets with 
longer range and increased accuracy pose a significant challenge. EUCOM 
maintains plans to deploy forces when requested in support of the 
defense of Israel against ballistic missile attacks. EUCOM also 
conducts maritime BMD patrols and weekly training exercises in 
cooperation with Israel. The United States and Israel have continued to 
execute the ``Combined United States-Israel BMD Architecture 
Enhancement Program,'' which includes both exercises and dedicated test 
events managed by the Missile Defense Agency, all supported by EUCOM.
E. Support to other Combatant Commands
    In addition to EUCOM's responsibilities as a warfighting command, 
it also must serve in the role of a supporting command.
    EUCOM continues to provide direct operational support to AFRICOM by 
deterring growing opportunities for al Qaeda and its affiliates and 
adherents, ISIL, and other terrorist organizations and criminal 
networks across the African continent. As the supporting command to 
CENTCOM for Operation INHERENT RESOLVE, EUCOM continues to provide 
combat ready forces, force enablers, and critical combat support in the 
fight against ISIL in both Iraq and Syria. Turkey has expanded its role 
in the counter-ISIL coalition, allowing the United States to stage 
armed aircraft from Incirlik Airbase, and has increased its internal 
security operations against the group. ISIL can no longer view Turkey 
as a permissive operating environment and will likely attempt targeted 
attacks against United States and Turkish government.
    EUCOM's postured forces remain ready for rapid reaction in the 
volatile environments of North Africa and the Middle East. Special 
Operations crisis response forces based in Europe continue to provide 
immediate theater response capability, while remaining prepared to 
support inter-theater Combatant Command requirements, primarily with 
aerial lift assets. In 2016, Special Operations Command Europe will 
assume the role of NATO Response Force Special Operations Component 
Command. The Marines of the Special Purpose Marine Air Ground Task 
Force in Spain, Italy, and Romania are ready to respond in Africa and 
Europe. Strike and associated support aircraft stationed in Germany, 
Italy, and the United Kingdom are also on alert to react to crises as 
needed. Strategic facilities and associated access agreements with 
European Allies and partners enable EUCOM to support this vital mission 
of protecting U.S. personnel and facilities.
    The mature network of U.S. operated bases in the EUCOM AOR provides 
superb training and power projection facilities in support of steady 
state operations and contingencies in Europe, Eurasia, Africa, and the 
Middle East. This footprint is essential to TRANSCOM's global 
distribution mission and also provides critical basing support for 
intelligence, surveillance, and reconnaissance assets flying sorties in 
support of AFRICOM, CENTCOM, EUCOM, U.S. Special Operations Command, 
and NATO operations. For example, over the past two years, EUCOM forces 
provided logistics enabling capabilities at airfields throughout Europe 
to forces deploying to the Central African Republic, enabling AFRICOM 
to support the African-led, multinational effort to stabilize that 
nation. Strategic facilities and associated access agreements with 
European Allies and partners enable EUCOM to support this vital mission 
of protecting U.S. personnel and facilities. An increasing number of 
embassies and consulates, however, remain at risk, on both the African 
continent and within Europe. AFRICOM maintains no permanent bases 
outside the Horn of Africa that can support forces assigned to this 
mission. Moreover, the capabilities available for EUCOM force 
protection are not keeping pace with the number of at-risk locations 
and people, and the magnitude of the threats they face.
    At the same time, EUCOM is supporting DOD and State Department 
efforts to establish and/or improve agreements with several eastern 
European and the Baltic countries. We believe these formal agreements 
will enhance bilateral relations and also serve as a means to convey 
the U.S. commitment throughout the region.
    Finally, and most importantly, EUCOM plays a supporting role to 
U.S. North Command and U.S. Pacific Command in defense of the homeland.
            iv. eucom capabilities and resource requirements
    Setting the Theater.  Given the historic changes in our security 
environment, we must reassess how our resources meet the most imminent 
and dangerous threats. EUCOM supports the Department's strategy 
providing a mixture of assurance to our NATO Allies and Partners and 
activities that deter Russia. As the dynamics of this strategy continue 
to shift, EUCOM finds that ERI fills many of the personnel, equipment, 
and resource gaps we need to meet the Russian aggression. As stated 
earlier, our current force posture in Europe has been based on Russia 
as a strategic partner. EUCOM greatly appreciates the authorization and 
appropriations for ERI by Congress over the past two years, which has 
mitigated the risks and improved EUCOM's ability to meet its strategy. 
ERI has also reduced the challenges associated with reductions in our 
permanent force posture. EUCOM finds itself in a shifted paradigm where 
the strategic threat presented by Putin's Russia requires we readdress 
our force allocation processes to provide a credible assurance against 
what remains the only nation capable of strategic warfare against the 
homeland. Looking forward we will need to continue to appropriate 
prioritize the requirements of this theater. EUCOM will most likely 
require continued Congressional support in the future- at a minimum of 
FY17 PB levels -as we effectuate all elements of the planning efforts 
currently underway. Additional assets are required from Army, Navy and 
the Air Force to ensure we are able to perform our missions within the 
AOR. Further, EUCOM needs additional intelligence collection platforms, 
such as the U2 or the RC 135 to assist the increased collection 
requirements in the theater.
    The augmentation of additional forces and APS in the FY17 budget 
continue the process of helping EUCOM meet several of its resource 
needs. The challenge EUCOM faces is ensuring it is able to meet its 
strategic obligations while primarily relying on rotational forces from 
the continental United States. Congressional support for ERI helps 
mitigate this challenge. The European-based United States 
infrastructure that supports EUCOM, CENTCOM, AFRICOM, and SOCOM exists 
as a result of the established relations between EUCOM forces and host 
nations. The constant presence of United States forces in Europe since 
World War II has enabled the United States to enjoy the relatively free 
access we have come to count on--and require--in times of crisis. 
Further force reductions will likely reduce our access and host-nation 
permissions to operate from key strategic locations during times of 
crisis. I am aware, however, of the tremendous demands on our current 
force structure and the numerous competing factors involved in managing 
the force.
    Combatant Commanders Exercise and Engagement Training and 
Transformation (CE2T2) Fund.  The CE2T2 fund is used to train U.S. 
Joint Forces at the strategic and operational levels. The CE2T2 has 
been instrumental to fund the EUCOM Joint Exercise Program, support 
interoperability with NATO and sustain theater security cooperation 
through EUCOM regional exercises. The CE2T2 is the only funding the 
COCOM has that is identified for Joint Training and establishes the 
foundation of the theater Joint Exercise portfolio. We encourage 
Congress to continue funding CE2T2. CE2T2 funding increases the 
readiness of our Joint Force, improves opportunities for our organic, 
rotational and regional aligned forces to jointly train with and engage 
with our Allies and Partners.
    European Reassurance Initiative (ERI) Requirements.  In FY17, we 
seek to continue a majority of the initiatives previously funded in 
FY15 and FY16. However, as you have seen, the FY17 ERI request greatly 
expands our effort to reassure allies and deter Russian aggression.
    We plan to continue to pursue the lines of effort currently 
underway in fiscal year 2017: (1) increase the level of rotational 
military presence in Europe; (2) execute additional bilateral and 
multilateral exercises and training with allies and partners; (3) 
enhance prepositioning of United States equipment in Europe; (4) 
continue to improve our infrastructure to allow for greater 
responsiveness; and (5) intensify efforts to build partner capacity 
with newer NATO members and partners. However, in light of the new 
security environment, in addition to the continuance of assurance 
measures, we are strengthening our posture in Europe.
    EUCOM Headquarters Manning.  Since the end of the Cold War 25 years 
ago, EUCOM forces and resources have been on a steady decline while our 
nation appropriately refocused its global security efforts elsewhere. 
We embarked on a policy of `hugging the bear' with what we perceived 
was a former adversary turned strategic partner. The current force 
structure in Europe, most recently influenced by the 2012 Defense 
Strategic Guidance and our rebalance to the Asia/Pacific, is roughly 
80% smaller than in 1991-making it the smallest COCOM-and is resourced 
with the strategic assumption that Russia is a partner, not a threat. 
EUCOM understands Congressional desire to reduce the size of 
headquarters across the Department. However, Congressional mandates to 
further reduce headquarter sizes come as the command is transforming 
from one focused on theater security cooperation to one focused on 
warfighting.
    EUCOM's Footprint Network.  As EUCOM continues to implement the 
2014 European Infrastructure Consolidation (EIC) decisions, we will 
ensure that remaining 1 properly supports operational requirements and 
strategic commitments. The Department is considering whether an 
emerging need exists to augment the remaining infrastructure to support 
assurance and deterrence activities in Europe. As discussed earlier, 
Congressional approval of last year's ERI last year permitted the 
deployment of an European Activity Set (for training purposes) into 
theater, while the fiscal year 2017 request seeks Congressional 
authorization and appropriation for APS (for crisis response). This 
equipment in the EUCOM AOR supports the rapid introduction of forces, 
reduces demands on the transportation system, and appreciably shortens 
response times. Just as important, it helps assure Allies of continuing 
U.S. commitment and supports a wide spectrum of options, from 
traditional crisis response to irregular warfare.
    Key Military Construction Projects (MILCON).  EUCOM's fiscal year 
2017 military construction program continues to support key posture 
initiatives, recapitalize infrastructure, and consolidate enduring 
locations. I appreciate Congress's willingness to continue to fund 
these priorities, in particular ERI projects, the Landstuhl Regional 
Medical Center/Rhine Ordnance Barracks theater medical consolidation 
and recapitalization project (ROBMC), and the relocation of the Joint 
Intelligence Operations Center Europe (JIOCEUR) and Joint Analysis 
Center (JAC) to Croughton, United Kingdom.
    ROBMC remains one of the command's highest priority military 
construction projects, providing a vitally important replacement to 
theater-based combat and contingency operation medical support from the 
aged and failing infrastructure at the current facility. This project 
is vital to continuing the availability of the highest level trauma 
care for U.S. warfighters injured in the EUCOM, CENTCOM, and AFRICOM 
theaters.
    Another key EUCOM MILCON priority project is the consolidation of 
the Joint Intelligence Operations Center Europe Analytic Center and 
other intelligence elements at RAF Croughton, UK. The Department 
requested Phase 1 planning and design funding for the consolidation 
during fiscal year 2015, with three phases of MILCON construction in 
fiscal year 2015-17 respectively. Phases 1 and 2 have been authorized 
and appropriated over the past two legislative cycles. We anticipate 
the construction completion will occur in FY20/21. The planned 
replacement facility will consolidate intelligence operations into an 
efficient, purpose-built building which will save the U.S. Government 
$74 million per year and reduce significant operational risk associated 
with the current substandard and deteriorating facilities. The RAF 
Croughton site also ensures continuation of the strong EUCOM-UK 
intelligence relationships and our sponsorship of the co-located NATO 
Intelligence Fusion Center. The maintenance of our intelligence 
relationships and the intelligence sharing we maintain with the UK and 
NATO remains vital to EUCOM's capability to conduct military operations 
from and within Europe.
    Information Operations.  As mentioned previously, Russia dedicates 
enormous resources and intelligence efforts in shaping its information 
operations domain. This is a key enabler for its aggressive hybrid 
tactics executed in Eastern Europe to distribute its propaganda 
campaign and help fabricate facts on the ground when needed. EUCOM's 
efforts in coordination with the interagency on countering this 
messaging campaign are critical in our overall assurance and deterrence 
measures.
                             v. conclusion
    As I prepare to conclude my time in command, I would like to 
reiterate how proud I am to have been given the opportunity to Command 
this team of professionals. EUCOM is a tremendous organization doing 
extraordinary things with limited resources to ensure we achieve our 
mission and objectives.
    I cannot emphasize enough the somber reality that Europe will 
remain central to our national security interests. From having fought 
two world wars in part on European soil to the current instability in 
the east and south of Europe, our nation must remain indisputably 
invested in a region that is inexorably tied to our own freedom, 
security and economic prosperity. The Russia problem set is not going 
away, and presents a new long term challenge for the EUCOM area of 
responsibility and our nation. Russia poses an existential threat to 
the United States, and to the NATO alliance as a whole. It applies an 
impressive mixture of all elements of national power to pursue its 
national objectives, to include regular reminders of its nuclear 
capabilities. While Russia understands the importance of NATO and its 
Article 5 commitment, it has embarked on a campaign to corrupt and 
undermine targeted NATO countries through a strategy of indirect, or 
``hybrid,'' warfare.
    Besides dealing with an aggressive Russia, Europe also faces the 
challenges of ISIL, managing the flow of migrants, and foreign 
terrorist fighters from the Levant and Middle East. In my opinion, 
these new threats emanating from the south and integrating throughout 
the continent will get worse before they get better. They will continue 
to stress the already strained European security elements, which will 
only embolden our common state and non-state adversaries.
    EUCOM needs to be better postured to meet our assigned missions, 
including those in support of AFRICOM, CENTCOM and other combatant 
commands. With your support of the fiscal year 2017 budget request, 
EUCOM will be better postured to meet these assigned missions. 
Additionally, EUCOM needs Congress' support for a credible and enduring 
capability that assures, deters, and defends with a coordinated whole-
of-government approach. This EUCOM team will continue to relentlessly 
pursue our mission to reestablish a Europe that is whole, free, at 
peace, and prosperous.

    Chairman McCain. Thank you very much, General. I wish that 
every American could have heard your testimony today. Maybe we 
would have a presidential campaign that does not focus on the 
size of people's ears and whether they sweat or not. It is 
disturbing because I wish that every American could hear your 
assessment of the situation and maybe we would focus on some of 
these issues. So I thank you for a very compelling testimony.
    General, some of us have believed that the Russians are 
using the refugee issue as a means to break up the European 
Union. Do you share that view?
    General Breedlove. Chairman, as you heard me describe, I 
have used the term ``weaponization'' of immigration. I cannot 
find any reason for the way Bashar al Assad has prosecuted much 
of his campaign against his own people. As a fighter pilot, I 
understand the ballistics of how you deliver a weapon. There is 
no understandable method by which you deliver a barrel bomb 
that reaches military utility. Barrel bombs are designed to 
terrorize, get people out of their homes, and get them on the 
road and make them someone else's problem. These indiscriminate 
weapons used by both Bashar al Assad and the non-precision use 
of weapons by the Russian forces--I cannot find any other 
reason for them other than to cause refugees to be on the move 
and make them someone else's problem.
    Chairman McCain. Some of us also worry about the so-called 
cessation is the Russians seeking the opportunity to 
consolidate their gains, remove largely the modern opposition 
from the area around Aleppo, and then consolidate their gains, 
authenticated by the facts on the ground. I wonder what your 
view of that is.
    General Breedlove. Chairman, I would like to say up front 
that any genuine effort to bring a peace that is durable and 
meets the needs of the Syrian people would be welcome I think 
for all of us. What we see, of course, as you have described, 
is a cessation. We have not really seen a change in the type of 
sorties being flown, et cetera, as you described in your 
opening statement. We do understand that the sorties are 
ostensibly being flown against Daesh and al Nusra and others, 
but I think that this remains to be seen and we will have to 
watch the actual activity of the cessation to determine whether 
it is a valid one or not.
    Chairman McCain. In your ability to attempt to predict, do 
you predict that the Russians will increase their military 
activity in eastern Ukraine? Do you support us supplying 
defensive weapons to the Ukrainians?
    General Breedlove. Chairman, thank you for the question.
    I literally just hours ago got off the phone with our 
ambassador in Ukraine to get his latest reading of what he sees 
happening along the front because we get reporting consistently 
that the number of attacks are up. In an unclassified format, 
the reporting I see is in the last 24 hours, over 71 attacks, 
and in the last week, over 450 attacks along the line of 
contact. The report from the ambassador is there are several 
disturbing trends in those attacks, and that is that some of 
them are now happening in places that were heretofore quiet, 
closer to Luhansk, and also that the type and style of the 
attacks reflect the weapons that were banned heretofore before, 
caliber size and range.
    I believe that Russia will dial up and down the pressure 
along the line of contact to keep Kiev under pressure to meet 
their part of the agreements first, which as you know, are 
tough for Kiev to do. I do believe that we will see Russia 
using the line of contact and the activity on the line of 
contact to keep unhelpful pressure on Kiev.
    Chairman McCain. Finally, do you believe we should provide 
defensive weapons?
    General Breedlove. Sorry, Mr. Chairman.
    I have said to you before and this committee before that I 
believe that we should not take any tools off of the plate as 
we address this problem. Russia is using all the tools of a 
nation's power against Ukraine. We use that simple model of 
DIME, diplomatic, informational, military, and economic. We see 
Russia bringing pressure in all of those. In the military 
environment, I do not think that any tool should be necessarily 
precluded, and I have made my recommendations along those 
lines.
    Chairman McCain. Thank you.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General, for your excellent testimony.
    I know when you were here last year, there was a real 
concern that these separatist elements, actually Russian 
surrogates, would either surge beyond the Minsk line and indeed 
go for some major urban areas, particularly coastal ports. 
Because of your activity and more importantly because of the 
courage of Ukrainian forces, that has been stopped. As you 
point out, there is continued activity, military activity.
    There seems to be, based on my trip last September, a shift 
to political destabilization of the regime in Kiev. That 
requires not only a military response but also reforms by the 
Ukrainian Government, support by the international community. 
Can you talk about this other dimension of the fight, which at 
this point might be more critical? Your comments, please.
    General Breedlove. Yes, sir. Thank you for that.
    In my conversation with the ambassador this morning, I just 
would point out again in an unclassified setting, that there 
appears to be some probing actually going back and forth across 
the line now. It is nothing like major military muscle 
movements.
    Clearly the path that you described is a very tough one and 
a critical one for the Ukrainian Government. As we all know, 
the current leaders of Ukraine were elected in a reform 
environment, and their own people expect reform as a part of 
their performance. As you, I think, correctly lay out, what we 
see now is Russia bringing broad pressure on that government to 
force problems in this change. I must say--and I have said this 
before--it is really hard to do major change in your government 
when your nation is in the field fighting for its existence. 
Having to effect these changes, while the military is defending 
forward, is also tough. I believe that by slowing and 
discrediting the government, that there is a lot of pressure by 
the people and encouraged by these actions that you mentioned. 
It is, I think, a very worrisome matter.
    Senator Reed. Thank you.
    Stepping back a bit in terms of the overall Russian both 
strategy and capacity, I think the chairman once famously 
described Russia as a gas station masquerading as a country. I 
do not think it has been said any better, frankly. We saw the 
initiation of a lot of these activities when gas was roughly 
$80-$100 a barrel. It is now $20 to $30 a barrel. It suggests 
long run or at least raises the question long run if we can, 
through our actions, keep prices at this low range, at what 
point might you see the Russians either lack the capacity or 
have internal problems that distract them from these efforts. 
Have you seen any indications yet?
    General Breedlove. Senator, I think that I am not an 
economist, but I think I could talk to----
    Senator Reed. That does not stop anyone here from talking 
about the economy.
    [Laughter.]
    General Breedlove. I think clearly the combination of 
sanctions, of the general economy, and the extremely 
challenging gas prices for Russia has brought pressure on them. 
In the past, I have actually intimated that I did not see it 
changing anything on the battlefield.
    I would tell you that now, Senator, I do see a few changes, 
and I would like to just stop there. I would happy to have my 
staff discuss the particulars in a classified environment.
    Senator Reed. Fine, sir. Thank you for your answer.
    Just a final point too. When we had a chance to meet, you 
indicated as part of the area denial efforts of the Russians 
are their extensive use of submarines. In fact, in your 
command, you are only able to fill a fraction of the requests 
that you make for U.S. submarine activity. If you could share 
that information with us, I think it would help.
    General Breedlove. Senator, thank you very much. I may 
actually just get up, if it is okay, and walk over to the map 
just for a tiny moment.
    Senator Reed. Yes.
    General Breedlove. I will tell you what. I will just sit 
here and do it from here.
    Senator Reed. Why do you not have somebody to cover the 
map? If the mountain will not go to the man, the man shall go 
to the mountain, or vice versa.
    [Laughter.]
    General Breedlove. So, Senator, as you know, this is an 
area that we sort of describe as the bastion, and this is where 
Russia does all of its production testing and work of its most 
sophisticated submarines. This is not classified information. 
Then to get out into the world to be able to employ those 
submarines, they have to come out through this area over here 
that we call the GIUK gap. We love acronyms. Greenland, 
Iceland, UK gap. So, Senator, at an unclassified level, we are 
challenged to be able to watch all this activity. The Russians 
understand the utility of submarines and have invested heavily 
in those submarines. That does challenge our abilities.
    Senator Reed. Thank you very much, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, General Breedlove, let me join in the 
conversation about your career, your contributions, what you 
have done. If this ends up being the last one, I mean, you can 
still come by and visit. Right?
    General Breedlove. Yes, sir.
    Senator Inhofe. Back when the continent of Africa was in 
three different commands, I was one of them who felt that we 
should have an AFRICOM. We have had it now for a few years. The 
problem was, as it was set up, it was set up really without 
resources. So if something happens, then they would depend upon 
you, upon EUCOM, to be able to be resourced so they could deal 
with those problems. Right now, I can name a lot of places in 
Africa that I personally looked at and I could see problems 
coming, Burundi, Eastern Congo, Zimbabwe, and several other 
areas on both coasts where there have been oil findings and 
pirating all of that.
    Now, if that should happen, you have already stated in your 
testimony--you testified that you do not yet have the 
personnel, equipment, or resources necessary to carry out your 
own missions. What would you do if all of a sudden you had to 
have those resources there and you do not have adequate 
resources to carry out the mission as you see it now?
    General Breedlove. Senator, if you would allow me just a 
moment of sharing a point of pride of mission, and that is our 
EUCOM forces are, as you pointed out, all also available to 
AFRICOM, and all of the forces that AFRICOM actually have, we 
support in Europe in our basing, et cetera. Our command takes 
great pride, when there is an Africa mission, in being the very 
best support team commander to Rod Rodriguez and our AFRICOM 
brothers and sisters that we can.
    So what I would say is we do have a full-time job 
addressing the challenges that we see in the east, Russia; in 
the south along Turkey's border where Russia also is, but the 
problems down there. Our forces do have a full-time job in 
those endeavors. When we do have to use our forces to support 
AFRICOM--and that is relatively often--of course, that lowers 
our capacity to respond and also it uses our forces' time when 
they are normally in what we call dwell, remembering that all 
of EUCOM's forces are still in the rotation like forces from 
America and other places to do the missions in CENTCOM. So when 
our forces are home from their CENTCOM rotations are when they 
are able to address AFRICOM challenges. So we call that doing 
that mission in our dwell or the time we are supposed to be 
recovering from and training for our next rotations. It is a 
challenge, but again, I would offer in a small moment of pride 
to say that our EUCOM forces do a great job.
    Senator Inhofe. Good. I was not implying that they did not. 
I am just saying that if your resources really are not adequate 
now and something like that could happen there or the Balkans 
or someplace else, it would be a serious problem.
    We have talked about--Senator Reed gave his gas station 
characterization. I think we all understand that. You have 
actually written the European continued dependency on Russian 
energy specifically for Soviet and Eastern Bloc states only 
serves to bolster their--and you are right. You are exactly 
right on that.
    Now, when we lifted our 40-year ban on exports, how do you 
see that as rectifying this problem that we all know is there?
    General Breedlove. So, Senator, thank you. Again, just to 
go back to that simple model, that D-I-M-E, the ``E'' part--and 
I can just use Ukraine as an example. In the ``E'' part, Russia 
is very apt to use energy dependency and energy capabilities as 
one of the tools, adjusting prices, restricting flows, et 
cetera, et cetera. More available energy sources I think would 
help to diffuse that tool that they could use.
    Senator Inhofe. I appreciate that. My time has just about 
expired, but I did want to remind you about our conversation in 
my office. We talked about the--I happened to be over there at 
the time they had their problem, its election. That is the 
first time in 96 years. There is not one communist in their 
parliament. Both Poroshenko and Yatsenyuk are having other 
problems right now. You were asked about sending defensive 
weapons over there, and you answered that question. Do you see 
the fact that they have domestic problems there as also 
contributing to the problem that we are having over there?
    General Breedlove. Yes, sir, I do in that I believe that a 
lot of pressure is being brought on them from the outside to 
continue this problem that they have to meet the requirements 
of their people. These are definitely pressures that are being 
used to exacerbate their attempt to make the changes that they 
need to make.
    Senator Inhofe. Thank you, General.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman. I want to join 
the chairman in thanking you for your excellent testimony today 
and also for your service over many years and your families as 
well.
    You began to describe for Senator Reed some of the threats 
posed in terms of undersea warfare capability by the Russians, 
especially our apparent inability to fully track their egress 
and activities in that area. I wonder more broadly whether you 
believe that our investment in undersea warfare capability is 
sufficient. The President has proposed $5.2 billion in funding 
of Virginia class submarines in his budget and $1.9 million for 
the Ohio replacement program. More broadly than just tracking 
Russian submarines in your area of command, do you believe that 
our investment in undersea warfare capability is sufficient?
    General Breedlove. Senator, I would rather not delve into 
the service's budget because I do not know the different things 
they are having to trade off and do inside of their budget.
    I would rather, if you would allow me to, speak to the fact 
that submarines, like other assets, intelligence, surveillance, 
and reconnaissance assets and other things, are what we call 
low-density/high-demand, meaning that typically the combatant 
commanders have more appetite than there is supply. I think it 
is a place where we have to make tough resource allocations as 
a military.
    I am sorry to not satisfy about particular budget line 
items, but I would say that clearly we could use more of these 
capabilities.
    One other thing that I would say as it relates to 
submarines is as it relates to our Nation's nuclear capability, 
I believe it is important to remain ready and capable in that 
way.
    Senator Blumenthal. A number of witnesses before this 
committee from the Department of Defense have characterized 
submarines as one of our chief asymmetric points of dominance. 
You would agree, would you not?
    General Breedlove. I think we have a magnificent capability 
in our submarine force.
    Senator Blumenthal. Turning back to the Ukraine, how 
significant is the issue of corruption there in your view?
    General Breedlove. Senator, this is something I think that 
is a challenge in many places that we are dealing with around 
the world. I know that it has been a challenge in Ukraine and I 
know that, if you read the papers, you see that they are 
getting after this and it is causing some disturbance among 
those who are officials and others in the country. I think that 
it is a challenge, and I see that, as they try to address it, 
it does cause turmoil.
    Senator Blumenthal. In the fiscal year 2016 NDAA, Congress 
authorized $300 million for the Ukraine Security Assistance 
Initiative. $50 million of that was intended for lethal 
assistance, including anti-armor weapon systems, mortars, crew-
serve weapons, grenade launchers, and small arms. Are you 
satisfied with the pace of provision and delivery of those 
weapons?
    General Breedlove. Sir, this year we have a group that I 
think does a wonderful job, a multinational joint commission, 
that goes into Ukraine and works with the Ukrainian leadership, 
both uniformed and civilian leaders of their military, and sits 
down, based on our military expertise and those who we carry 
with us from our ministries, to determine what we think in a 
broad sense is what is needed for the Ukrainian military in the 
context of these funds that you have graciously provided. That 
work typically tracks very closely with what they ask us for 
when they provide us their
wishes.
    I tell you that to say that we have this year done our work 
and put together what I think is a comprehensive set of 
capabilities that would answer broad requirements because they 
are everything from communications through lethal aid that they 
do need. I have provided my inputs to my leadership with both 
lethal and non-lethal options, and I know that that is working 
through the process now, sir.
    Senator Blumenthal. So they are getting pretty much 
everything they ask for? When you say they track their 
requests, I understand that to mean that those requests are 
met.
    General Breedlove. They track closely with what the 
Ukrainians typically provide when they provide lists to 
visiting CODELs and others.
    Senator Blumenthal. My time has expired. I thank you very 
much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. Thank you, Chairman.
    General Breedlove, I would like to thank you for your 
excellent leadership and service to our country and your family 
as well.
    I would like to ask--you have said I think on several 
occasions before this committee today that you have submitted 
your plans on your recommendations for both lethal and non-
lethal support to Ukraine. I would like to ask you how long ago 
did you submit those proposals to the administration.
    General Breedlove. Ma'am, I will get this exactly wrong. It 
has been some weeks ago.
    Senator Ayotte. Has it been over months?
    General Breedlove. Can I get you that answer so I can get 
it exactly right?
    Senator Ayotte. Yes.
    The information referred to follows:

    EUCOM submitted the Multinational Joint Commission-created Ukraine 
Security Assistance Initiative (USAI) proposals to OSD and Joint Staff 
on 22 December 2015. There were two proposed courses of action (COA): 
One COA contained a lethal assistance (anti-armor capability) along 
with non-lethal support; the second COA contained only non-lethal 
recommendations in line with previous assistance to Ukraine.

    Senator Ayotte. I mean, so here is my question. So you have 
been before our committee before. You have talked about the 
dire need in Ukraine. We all know the situation continues to 
escalate based on your testimony. Is it fair to say, though, 
that you have already submitted your recommendation? I know you 
are going to check on me, but we are talking more than weeks. 
Are we not talking months here?
    General Breedlove. It could be, ma'am. I just need to get 
it right.
    Senator Ayotte. I think it is important for us to 
understand this because you have not gotten an answer yet. Have 
you?
    General Breedlove. We have not seen the final result of 
that----
    Senator Ayotte. Well, here is the problem. There is a real 
urgency here. We got an issue with Russia, and you have made 
your recommendations. We admire your service. You have said let 
us make sure we do not take any options off the table. This 
committee, over a year ago plus, as a whole on a bipartisan 
basis, said let us provide lethal support so Ukrainians can 
defend themselves. It has not happened. You have not even 
gotten an answer.
    So we look forward to hearing when you submitted this. I 
would call on the administration to support Ukraine and to take 
up your recommendations and to act with some urgency here on 
behalf of our friends, the Ukrainian people, who we have seen 
Russia blow off the Budapest Memorandum and we also see their 
aggression, and it is time for us to stand with the people of 
Ukraine.
    I would like to also ask you in the wake of the November 
terrorist attack in Paris, to what degree do you believe that 
ISIS will continue to attempt to infiltrate their refugee 
flows.
    General Breedlove. Ma'am, I think that they are doing that 
today. I think that as you know, over a year, maybe even as 
much as 2 years ago when we had refugee flows that were not 
completely consistent but probably more legitimate refugees 
fleeing nonresponsive governments, ungoverned spaces, civil 
war, terrorism, what we have seen growing in the past months 
and year is that in that flow of refugees, we see criminality, 
terrorism, and foreign fighters. I know that does not sound 
like a distinction, but I see a distinction in the latter two. 
This criminality, the terrorists, and the returning foreign 
fighters are clearly a daily part of the refugee flow now.
    Senator Ayotte. So this is a real risk, obviously, both to 
Europe and ourselves as we look at this refugee issue and 
something that we need to be very careful about in terms of 
screening and also making sure, especially with the number of 
refugees flowing both into Europe and also some of them coming 
here that we are very careful about this. Would you agree with 
that?
    General Breedlove. Ma'am, I think we need to be careful 
about all flows of these refugees. Yes, ma'am.
    Senator Ayotte. Thank you.
    I would like to ask what specific steps have we taken in 
European Command to ensure that Moscow does not gain a military 
advantage as a result of its development of ground-launched 
cruise missiles in violation of the INF Treaty. This violation 
has been something that has been noted many times in this 
committee over the last couple of years.
    General Breedlove. Ma'am, thank you for that question.
    I think you have heard actually in testimony before this 
committee the Secretary of Defense's plan on how to address 
that. At an unclassified level, he lays out four steps, and 
that is what we are doing--or five steps, and that is what we 
are doing. Again, at a classified level, I would love to have 
my staff get with yours over those steps.
    Senator Ayotte. That would be helpful. What I have not 
seen, though--maybe I am missing it--I have not seen us really 
press Russia or call them out on this in a very strenuous way. 
Am I missing something?
    General Breedlove. Ma'am, I guess that is a question of 
degree. We are calling them out, and the State Department and 
others who deal with this in the treaty realm are the first and 
primary voices now. I would not want to speak for their efforts 
at this point.
    Senator Ayotte. Well, I look forward to also hearing more 
in a classified setting about our response. I continue to 
remain concerned. Russia has essentially blown off the INF 
Treaty, and what it means for, obviously, the protection of us 
and our allies.
    General Breedlove. Ma'am, we will have the staffs connect 
so that the classified piece can be done.
    Senator Ayotte. Thank you.
    Chairman McCain. General, in response to Senator Ayotte 
about terrorists in the flow of refugees, logic compels us to 
assume the risk of attacks on the United States of America or 
European countries is significantly increased. Is that a 
conclusion you could draw?
    General Breedlove. Chairman, I would take Daesh at their 
word. They have stated that they intend to attack the West, to 
include the United States, and I believe that they will take 
the opportunities that they can to effect those attacks.
    Chairman McCain. If they are in the flow of refugees, the 
likelihood of attack is significantly increased?
    General Breedlove. I think we have to look at every refugee 
flow with the eye towards this could be that source.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    First of all, General Breedlove, let me just tell you that 
of all the professionals that appear before this committee, I 
think yours is with anticipation and appreciation more than 
any. We have heard from everybody. Trust me. So that speaks 
highly. I would hope that you would reconsider maybe your 
exiting a little bit later than
earlier.
    With that being said, sir, this whole refugee thing is a 
great concern to the State of West Virginia and my constituents 
in my State. I know that we are concerned. You have said that 
basically those people that are the refugees sincerely that are 
migrating because of the danger to them and their families--
there are terrorists. There are foreign fighters and extremists 
entwined in that group for the purpose of basically wreaking 
havoc on the rest of Europe and the rest of the world, if they 
can.
    Are the European officials as concerned as what we are 
seeing? They are speaking out and that is why they are cracking 
down more, you think?
    General Breedlove. Senator, thank you. So the timing of my 
exit--my wife is sitting behind me, so I must be very careful.
    Senator Manchin. I was not sure if I saw you nudged or get 
kicked or whatever. I am not sure.
    General Breedlove. We all have bosses, and I have a clear 
one.
    [Laughter.]
    General Breedlove. Sir, I do believe the Europeans 
understand and are addressing this issue, especially--well, all 
of the nations, but I would highlight that those nations who 
have come under attack have shown us that this is a problem and 
that the problem in one nation can quickly go across a border 
into another nation. I do see all of the things that you would 
expect of our nations as far as we collaborate, include on 
intel sharing, policing functions, and things to try----
    Senator Manchin. Let me ask then does that lead back into 
the thought process that there should be a secure no-fly zone, 
something of that sort that NATO is going to participate, all 
the countries that are concerned will participate in that 
versus basically eliminating the refugees who are really 
sincerely looking for some stability and peace in their life.
    General Breedlove. Senator, I have heard this concept 
discussed in multiple forums. It was a large discussion at this 
year's Munich Security Conference in several discussions. So I 
do know that these are things that Europeans are considering.
    Senator Manchin. As you know, politics sometimes gets us 
entwined a little bit more than what we should be. The whole 
refugee bill that we have been working on, trying to basically 
make sure that these types of people that are entrenched, the 
terrorists, foreign fighters, and other extremists, is really 
the concerns of West Virginians. Could they be coming to this 
country under the guise of looking for some asylum, if we can 
do a better job on that end before they get to this end?
    General Breedlove. Senator, as I said, I think that every 
refugee flow needs to be looked at with an eye towards it could 
be taken advantage of by those who would seek to do us harm.
    Senator Manchin. So they are looking for every avenue they 
can in order to get here or get wherever they can to wreak 
havoc. That is known. I mean, the intelligence tells us that. 
Correct?
    General Breedlove. Yes, sir.
    Senator Manchin. Sir, also as far as on the NATO 
participation, 2 percent, are you seeing more of our NATO 
allies stepping up to the plate, if you will?
    General Breedlove. So, Senator, thank you for that 
question, and it is worth discussing.
    The numbers that I will give you will be exactly wrong from 
day to day, but they are approximate. Since Wales, the nations 
have taken this seriously I think. The numbers that we are 
using now, as we move through our last ministerials, is that 16 
of our nations have arrested the decline in their budget. About 
five of our nations exceed 2 percent now, and about 7 percent--
my opinion, not an official opinion of anyone's, but in my 
opinion there are about seven of the nations which I think have 
very creditable plans over a creditable amount of time to 
attempt to get to 2 percent.
    So still work to do. I do not want to overemphasize this in 
a positive light, but what I do think this indicates is a trend 
that the actions that our nations have seen in Ukraine, the 
actions that our nations have seen on NATO's southern border 
have affected a change in the approach to these budgets.
    If I could, just one more thing, Senator. As important to 
me as the 2 percent is the other modifier that we talk about, 
which is 20 percent of that 2 percent should be spent on 
recapitalization, bringing capabilities to our military 
function. If the 2 percent is all personnel costs, that does 
not sustain capability over time. So the 2 percent investment 
in recap is also important--or the 20 percent investment in 
recap is also important.
    Senator Manchin. My time is running out, sir.
    I would like to say this. You know, the concerns that 
people have--and I think if you watch television at all and the 
anger that you are seeing in the American voters and people 
that are participating in the political process--very concerned 
about the United States of America carrying the load for 
everybody. NATO being able to maybe call the shots and have so 
much influence and input, but expected for America to protect 
the rest of the world. That is what you are seeing the 
pushback. People in my little State, one of the most patriotic 
States in the Nation, is concerned about why do we have to 
carry the heavy load. Why cannot other people
participate?
    What you had recommended--can NATO fulfill that they go 
down that mission road, or can they just pick and choose and 
say, listen, we fulfilled our obligation, here is our 2 
percent?
    General Breedlove. Senator, the policing function is really 
the rest of NATO working on each other.
    Senator Manchin. Thank you, sir. I appreciate very much you 
being here.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    It is nice to see you again, General. I too would like to 
thank you for your many years of service to this country. It is 
truly appreciated by the people of the United States.
    Last year, you spoke about the lack of ISR coverage in the 
European theater. What percentage of your ISR requirements are 
currently being fulfilled?
    General Breedlove. Ma'am, I will get this number exactly 
wrong again, but it is a very small percentage. I think that is 
based on where we see where our larger ISR enterprise is 
focused right now.
    Senator Fischer. If you would have to guess, would you say 
it is less than 5 percent? I know we heard from General Kelly 
that it was about 5 percent for his combatant command. My guess 
is it is quite a bit less.
    General Breedlove. Ma'am, I would say it is definitely 
below 10 percent.
    Senator Fischer. Is that an improvement over last year? Do 
you believe the assets are increasingly being devoted to 
counter the ISIL fight?
    General Breedlove. So, ma'am, it has increased somewhat 
over last year. Again, in this forum, I cannot speak to the 
specifics. There are a few things that we are doing different. 
As you remember, ma'am, the counter-ISIL fight is really a 
CENTCOM fight, and so those assets are truly being allocated to 
CENTCOM for that rather than EUCOM.
    Now, what I do know is that once again we are proud to be a 
good supporting commander. A good percentage of what we are 
given in EUCOM to do ISR is actually being used along the 
Turkish border. So it sort of supports both our EUCOM 
requirements and CENTCOM requirements.
    Senator Fischer. Correct. I am referring to the annual 
airborne ISR requirements.
    General Breedlove. Yes, ma'am.
    Senator Fischer. I believe you have also mentioned the 
shortfalls in the numbers of analysts when it comes to Russia 
and dealing with Russia. Do you still have gaps in that area?
    General Breedlove. The short answer, ma'am, is yes. There 
is good news here, and I would like to give credit to the intel 
community. When we first started having our issues in Crimea, I 
went to our two most senior leading intel leaders. When I sat 
down with them and talked about where we were in the height of 
the Cold War, where we were at the end of the Cold War, and 
where we are now with Russian analysts, and it is a 
demonstrative difference.
    To the two directors' great credit, they created what is 
called Bare Essentials, and we have turned around an effort to 
begin to bring analysts back to the Russia problem. Now, that 
is a good thing, but this will deliver slowly over time. Yes, 
we still are challenged with not only the analytical capacity, 
but the physical capacity of being able to look at this 
problem.
    I want to say one more time to give credit to the intel 
community for recognizing the problem and beginning to turn 
around an
approach.
    Senator Fischer. As we look at the effectiveness of the 
ISR, it is not just the collecting of the information. It is 
also the analyzing. I am happy to hear that you believe that 
gap is starting to close a little bit. What can we do to help 
that process move a little quicker?
    General Breedlove. Ma'am, can I take advantage of that 
question and maybe change the answer just a little bit and 
explain to you what is really worrisome to me and what we need 
to do in my opinion?
    We need to develop what we call indications and warnings so 
that we can be predictive of what our opponents might do. 
Because we are primarily a U.S.-stationed force and U.S. EUCOM 
forces forward are somewhat less, are smaller than they were in 
the past, we need to be able to accurately predict when we need 
to bring forces over to solve a problem before it starts to 
deter it. That is based on what we call indications and 
warnings. Indications and warnings is based on a solid 
understanding of the day-to-day intelligence. We need to 
understand what is normal so that we can see the spike out of 
normal that says, wait a minute, we need to deploy the very 
high readiness joint task force or we need to deploy elements 
of our rapid reaction capabilities. So to develop that I&W, we 
need to first establish a solid base and understanding, and 
that will take more intel capability and ISR than we currently 
have
allocated.
    Senator Fischer. To what extent are we sharing information 
with our NATO allies in order to help really fill that gap as 
well? How are they contributing? First, how are we sharing with 
them?
    General Breedlove. We are sharing with them, and they are 
sharing with us. Now, talking to you a little bit as the NATO 
Commander not the U.S. Commander, our intel function called the 
NIFC, NATO Intelligence Fusion Center, is where all the nations 
come in and put in their intelligence. It is fused and then put 
back out as a NATO product. We are all sharing into there to 
try to establish that baseline of understanding that we need. 
We are sharing with them. As you know, our Nation has some very 
good technical capabilities, and what our friends bring to the 
table or others where they have great on-the-ground 
capabilities that they share with us. I think we should stop 
there on that conversation.
    Senator Fischer. Thank you, sir.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    A couple of specific questions, General. In your testimony, 
you unequivocally state that you believe that we should ratify 
the U.N. Law of the Sea Treaty. Do you believe it is 
compromises our national security--our failure to do so is a 
compromise to our national security?
    General Breedlove. Senator, I would not want to put a price 
like that on it. I think what I would do is tell you that 
military people have consistently supported the UNCLOS. If I 
could just use a simple vignette of what is happening now in 
the Arctic, as we see the Artic rim become militarized, 
especially in a Russian context, and then as we see just like I 
think a week, 10 days ago, 2 weeks ago now, renewed different 
claims into the Arctic shelves----
    Senator King. We are not at the table where those claims 
are being adjudicated.
    General Breedlove. That is correct. That is where I was 
headed, sir. Because we are not a member of the UNCLOS, we do 
not have the standing at the table to address that.
    Senator King. I think I have asked practically every flag 
officer that has appeared before this committee that question 
and gotten the same answer. I hope the Congress will listen to 
the advice of our military commanders.
    Last fall, I was in Iceland and was struck by the strategic 
value of that country and toured the old Keflavik air base. 
Should we be rethinking our decision to leave that base and 
find some way of having a presence there? To me, it is a giant 
unsinkable aircraft carrier right in one of the most strategic 
lanes in the world. Your thoughts?
    General Breedlove. So, Senator, as I used the map to 
explain that GIUK gap, Greenland, Iceland, UK gap, our ability 
to project intelligence, surveillance, and reconnaissance and 
other capabilities from places like Keflavik are very important 
to us. We are already renewing some of these conversations.
    Senator King. I hope that will continue, particularly since 
before the facilities either get reused or deteriorate. It is a 
marvelous
facility.
    We talked about the Russian economy, and I have heard 
various estimates if oil prices stay where they are, 18 months, 
2 years, 3 years before there is a real collapse. I think you 
mentioned this or suggested it. I think that is a moment of 
maximum danger. When Putin's popularity--my understanding--is 
being maintained by his foreign adventurism and to the extent 
that the domestic economy and political situation tightens in 
the country, he is going to be more likely to be adventurous. I 
think that creates some real risk for us. Would you concur?
    General Breedlove. Sir, this is something that we talk 
about a lot, and it is one of the scenarios that concerns us. 
As the other elements of national power diminish due to the 
economy and the military continues to be invested in that, that 
dynamic is of
concern.
    Senator King. What do you make of his, I think, unsettling 
discussions about nuclear weapons, particularly along the NATO 
line, this idea of escalate to de-escalate? It seems to me this 
is a change in doctrine that is really disturbing and we should 
be thinking very seriously about what the implications are.
    General Breedlove. Sir, I am on record that I think this is 
irresponsible discussion--I actually called it irresponsible 
talk.
    Senator King. For them I hope.
    General Breedlove. Yes, sir. That is correct. I am sorry. I 
should clarify.
    It is not just Mr. Putin. As you know, it has been a series 
of their officials from several levels of ministries, to 
include the uniformed military, that the nuclear weapon is 
considered a normal weapon in the normal escalation or de-
escalation matrix of resolving an issue. I have said more than 
once that I do not think that is responsible talk by a nuclear 
power.
    Senator King. Is NATO article 5 credible today? Does Russia 
view NATO, particularly in the Baltic States, as a credible
responder?
    General Breedlove. Sir, if I could, just a tiny bit of 
background. I would actually, if I was talking about the 
articles of the Atlantic Treaty, it would start with article 3. 
Article 3 essentially says, in my Georgia terms, defense starts 
at home. In other words, our nations also have to be focused on 
their own internal defense, and I think that I would remark to 
you that that has taken a very good turn since Wales and since 
Crimea.
    Then article 4 is the next step I would talk about, and 
that is where nations begin to talk about the challenges that 
they see and that they might be facing a threat.
    Then article 5, of course, is that collective defense 
article. It is the one that is most talked about, but I think 
the others are equally important.
    I do believe that Mr. Putin understands the difference 
between a NATO border and a non-NATO border when it comes to 
overt military----
    Senator King. The Ukraine.
    General Breedlove. Yes, sir.
    I do not think necessarily that those NATO borders mean 
that other elements of power will not be used. I think there is 
an incredible information/disinformation campaign and other 
types of pressures like economic pressures and energy, as was 
mentioned earlier, that are being brought on some of our NATO 
partners and allies.
    Senator King. A very important point. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General, thank you for your service.
    I would like to follow up a little bit with what Senator 
King has touched on, and that is the escalate to de-escalate 
approach. I noticed in your written testimony, you talk about 
the missile defense in Europe and you have identified four 
phases. The missile defenses that we talk about here--what are 
they designed to protect against?
    General Breedlove. So the current EPAA, European Phase 
Adaptive Approach, is our American contribution to overall 
European missile defense. The essential elements of that are, 
as you know, four cruisers--or not cruisers--sorry--let us be 
precise--four destroyers that have been delivered to Rota with 
the Aegis system and then to build two remote Aegis Ashore 
sites, one in Romania and one in Poland, and then to couple 
those with a TPY-2 radar, which we have placed in Turkey. The 
first elements of that are all in place, the four destroyers, 
the TPY-2 in Turkey, and the first--we have just taken delivery 
of and working towards IOC, initial operating capability, at 
our site at Deveselu in Romania. Then following, we are now on 
time, on schedule as we begin the process of the Polish site. 
These are aimed at the threat that we see from the Middle East 
and Iran and others in their missile capabilities in order to 
defend Europe.
    Senator Rounds. So these would be defensive weapons for 
both tactical or non-nuclear, as well as nuclear weapons?
    General Breedlove. Sir, they would defend against any 
missile because we would not really know. We might have a good 
guess, but we would not really know what kind of missile it is. 
So these ballistic missiles emanating out of the areas we are 
concerned about.
    Senator Rounds. I noticed that when we talk about our 
activity and our nuclear deterrence and weapons of mass 
destruction with regard to our capabilities, you are very 
specific in your statements talking about them in terms of 
strategic nuclear forces. I would suspect it is in regard to 
strategic versus tactical.
    Would you think that the Russians at this point view the 
same approach in terms of strategic versus tactical when we 
talk about nuclear weapons and the possible deployment of them?
    General Breedlove. That is an excellent question that I 
have not really thought much about, and I will explain why. I 
actually look at the problem in a different way, and it was 
mentioned before. That is that if you read the open writings, 
completely unclassified writings, of Mr. Gerasimov, all the way 
up in their organizations, the Russians talk about--I would not 
use the word ``routine,'' but talk about nuclear weapons being 
a part of that weapons continuum that could be used and is 
envisioned to be used in order to solve a conflict.
    To answer your specific question, I would do it in this 
way. I think that they see nuclear weapons as a part of a 
solution if they need it, and so they do not draw nearly the 
strong distinctions that you might be describing as it relates 
to tactical versus strategic.
    Senator Rounds. So if you were to compare our approach with 
regard to nuclear weapons, we are still in a position of 
looking at them as strategic in nature, whereas at the same 
time, it is very possible that Russia may very well look at 
them as a tactical weapon. My questions is, are we prepared to 
respond in the case that that is their actual long-term 
approach? Do we need to reevaluate our capabilities if that is 
their approach?
    General Breedlove. Senator, I will not dodge your question. 
I just do not think that is appropriate for this forum. If I 
could invite my staff to come sit down with yours and we can 
give you pretty specific answers to those questions.
    Senator Rounds. Thank you.
    I yield back, Mr. Chairman. Thank you, sir.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    General, I also add my thanks to you for your service and, 
of course, that of Mrs. Breedlove.
    I wanted to just comment on your position regarding the 
U.S. not joining in UNCLOS. While you did not go so far as to 
acknowledge that that is the threat to our national security, 
it clearly disadvantages the United States in our dealings in 
that part of the world. Correct?
    General Breedlove. Ma'am, I am not trying to be evasive. 
Just like other military individuals, I support that we need 
the UNCLOS to be able to address issues that we face today.
    Senator Hirono. I agree with you.
    In your written testimony, you mentioned the European Phase 
Adaptive Approach, and you were asked briefly about that just a 
little while ago and its capabilities to deepen our missile 
defense partnerships with NATO. I know that we have an initial 
operating capability in Romania and we are on track to put 
another site in--where is it?
    General Breedlove. Poland, ma'am.
    Senator Hirono. In Poland.
    So what is Russia's reaction to our development of EPAA 
sites?
    General Breedlove. Ma'am, we need to be very 
straightforward. Russia looks at this as a huge problem. They 
talk about it all the time as being destabilizing, et cetera. 
Russia believes that these sites challenge their strategic 
nuclear capability, which they then believe unbalances the 
nuclear balance with the United States. Russia has been 
consistently opposed to EPAA in all shapes and forms in Europe.
    Senator Hirono. So in response, then has Russia done 
anything because of the position that they have regarding EPAA 
sites?
    General Breedlove. Ma'am, I cannot tie any actions 
directly. I would just offer the following. Russia continues to 
aggressively recapitalize its nuclear capability. It continues 
to invest in its strategic nuclear forces. As you have heard 
mentioned here, most of the world believes they have abrogated 
the INF Treaty in developing tactical nuclear weapons that are 
outside of what the INF was described for. I cannot tie any of 
that directly to EPAA, ma'am, and I would not want you to take 
that inference. What I would say is that Russia sees the need 
and value for having a diverse and capable nuclear force, and 
they continue to invest in it.
    Senator Hirono. Thank you.
    You also mentioned that the 2012 Defense Strategic Guidance 
that outlined our rebalance to the Asia-Pacific was determined 
at a time when we thought Russia was a partner and not a 
threat. Now that Russia is deemed one of our primary threats, 
what are the implications to that regarding the rebalance to 
the Asia-Pacific? Can you also talk about some of the 
challenges of being able to maintain our interests in the Asia-
Pacific while also effectively trying to limit Russian 
aggressive behavior?
    General Breedlove. Ma'am, what I would rather not do and 
what I have refrained from for most of my military career is 
what we call shooting on someone else's target. So I would not 
like to address my concerns based on something that is 
happening in the Pacific Command.
    I would just tell you that we do see, as you have 
described, that we have been in a period for 2 decades of 
trying to make a partner out of Russia, and we have approached 
our strategies, our force sizes, our headquarters size 
capability and type. All the things in Europe have been 
adjusted for almost 2 decades for that situation where we would 
hope that we could go forward together with Russia to create a 
Europe whole, free, at peace, and I personally add prosperous.
    Again, as you have said, what we have seen starting 
probably in 2008, but certainly across the last 2 years is we 
do not have a partner in Russia. We are now ill-placed in 
Europe as far as our force sizing capability, our headquarters 
sizing capability, and we are having to readdress our planning 
and other things as well to readdress this issue. I would 
advocate that that understanding of what Russia now represents 
would require us to think about how we allocate forces.
    Senator Hirono. I think the same goes for our understanding 
of aggressive behavior from North Korea and China with regard 
to the Asia-Pacific area.
    So thank you for not pitting one area of the globe against
another.
    General Breedlove. Yes, ma'am.
    Senator Hirono. Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    General Breedlove, thank you very much for your years of 
admirable service. I know I appreciate it. All the members of 
this panel appreciate it, and of course, all of the folks 
across the country appreciate it as well.
    In your written testimony, you say the capabilities 
available for EUCOM force protection are not keeping pace with 
the number of at-risk locations and people and the magnitude of 
the threats they face. You did state that there is a growing 
mission and we are being stretched very thin.
    So as much as you can in this open setting, could you 
provide us with greater insight into the risks you are assuming 
due to a lack of force protection capabilities? I know you 
touched upon military intelligence and maybe we need a better 
understanding of its role in EUCOM. If you could expand on 
that.
    Then also, specifically what sort of capabilities do you 
need to enhance force protection in Europe not only for our 
service members, but for those families that are stationed 
there as well?
    General Breedlove. Ma'am, if you could allow me to hit some 
generalities.
    Senator Ernst. Absolutely.
    General Breedlove. Again, I would offer my staff to come 
speak specifics to you. I do not think they would be 
appropriate here to talk about our vulnerabilities----
    Senator Ernst. Yes, thank you.
    General Breedlove.--so that our opponents could hear those.
    Let me assure you first and foremost that the force 
protection of our soldiers, sailors, airmen, and marines and 
their families and those who support us like civilian entities 
like Dods and other things out there, teachers and others that 
are employed. These are a keen interest to us as commanders, 
and we work this issue every day.
    To the point that you mentioned, which I think is very 
salient for today's discussion, our ability to have the 
authorities and the capabilities to share widely with our 
partners and our allies is very important. We do this every 
day. As you know, some of our relationships are better than 
others, but part of our requirement is to understand what is 
going on on the ground, and normally our allies and partners 
know that better than we do. So key to our ability is that 
ability to share these things that we can bring to the table 
with the things they can bring to the table to put together a 
holistic picture to be able then to make the adjustments that 
we need to make. I would tell you that we are working that 
aggressively all the time.
    If I could, I would save the rest for a staff-to-staff 
discussion.
    Senator Ernst. Absolutely. It is imperative that we do 
assume certain risks, but there are risks that you should not 
have to assume. I would appreciate additional feedback on that.
    Sir, how will the Syrian ceasefire affect Russia's 
intervention into Syria, and specifically what impact will it 
have in your area of operations with respect to Russia's 
activities in Ukraine, Crimea, Georgia, the Baltics, and of 
course, elsewhere in Europe? I know we have mentioned the 
migrant flow. If you could just visit a little bit more about 
those specific areas, please.
    General Breedlove. Ma'am, as I stated before, I think it is 
important or at least I can say that any creditable and real 
genuine approach to bringing a ceasefire that respects and 
addresses the needs of the Syrian people I think will be 
welcome and we would support that. What we see in the 
mechanization of the ceasefire so far we need to watch and see 
how it works. We see continuing activity that is ostensibly 
aimed at the Daesh and al Nusra and other deemed terrorist 
fronts. So I think that the real effect of what is happening 
now--again, we support it if it is genuine and authentic, but 
we need to watch it. I have said before that the actions will 
speak louder than the words. We are really early now, and we 
need to see how those actions bear out.
    Senator Ernst. Great.
    I am running out of time, but very briefly a number of 
these places that I just mentioned, Ukraine and so forth--we do 
have through the National Guard our State partnership programs. 
Yes or no. Do you support those programs?
    General Breedlove. Ma'am, they really represent almost 24 
percent of my outreach to other nations, and they are, in some 
cases, our very best tool for developing partnership capacity 
in our
nations.
    Senator Ernst. Thank you very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    General Breedlove, I certainly share the sentiment of 
everybody on this committee about appreciation for your service 
to the country and your family's service to the country, and 
that we will miss you. I certainly hope that once you take off 
your uniform and rejoin civilian life, that you will continue 
to be involved in thinking about how we should be responding to 
the challenges that we face in
Europe.
    I want to go back to the testimony that you gave about NATO 
and where we are with our NATO partners and building their 
defense capabilities. I wonder if you could talk about what you 
hope to see coming out of the upcoming Warsaw Summit.
    General Breedlove. Yes, ma'am. Thank you for that.
    So as we approach Warsaw, I have said more than once and I 
sort of said it poorly in my opening statement that it is 
really the road through Warsaw, not the road to Warsaw. In 
other words, I believe that NATO will have to continue to adapt 
across time.
    What I believe is most important is that we continue the 
regime of increasing the readiness and the responsiveness of 
the entire NATO force structure. You saw at Wales we made 
adaptation to the NRF and we built the very high readiness 
joint task force. We increased the readiness of all of the NRF-
designated forces and their capabilities.
    That is not enough. We need to look and address the entire 
force structure, and that is why the investment regime that we 
talked about before is important, the overall 2 percent, but 
also inside of that 2 percent, the 20 percent recapitalization 
investment. I believe what would deter Mr. Putin in the end 
game is if he looks at a NATO that is more fit to purpose, more 
ready, more responsive, and a strong transatlantic alliance 
with Canada and U.S. on the other side of the Alliance. I think 
these are all very important. I do see recognition of this in 
our NATO allies and partners.
    Senator Shaheen. There has been a lot of--I do not want to 
say ``controversy'' yet, but potential for controversy over 
Great Britain's looking at exiting the EU and while they would 
still be a member of NATO. Do you see a referendum that would 
take Great Britain out of the EU as having an impact on the 
security in Europe and the potential for an impact on NATO?
    General Breedlove. Ma'am, I struggle to be qualified to 
make that judgment, and I am being very honest with you. I 
would say this, that the UK [United Kingdom] remains a staunch 
part of NATO, and there is no discussion either way about that. 
The UK is one of our great leaders in doing things that we do 
inside of NATO, providing forces, providing leadership. They 
and five to six other nations are those very highly technically 
capable nations that are incredibly important to some of the 
exquisite missions that we have to do in NATO. I remain 
completely confident in the UK as a functioning, contributing, 
and leading partner in NATO.
    Senator Shaheen. Thank you. I certainly hope that that 
continues to be the case regardless of the outcome of that 
referendum.
    I wonder--one of the things that NATO is working with the 
EU on right now is the challenge of the migrants that are 
coming into Europe. They have agreed to undertake a mission to 
help combat the criminal networks and the traffickers that are 
bringing those migrants across the Aegean from Turkey. Can you 
talk a little bit about how this operation is expected to work 
and what we think the chances for success are?
    General Breedlove. Yes, ma'am. Another small point of 
pride. The ministers asked us to do this at our last 
ministerial, and the responsiveness of the NATO force and the 
positioning and the way that we plan and use our standing NATO 
maritime groups. We were able to respond within 48 hours and 
have ships on station to begin the mission because the mission 
is still evolving. My headquarters and I have put out two 
directives to begin the mission and now NATO is refining what 
it looks like.
    Just very quickly, we are there to increase the 
surveillance, monitoring, and view of what is going on on the 
ocean, not to be a policing function, but to connect then to 
the Turkish coast guard and the Greek coast guard who are 
policing functions and hand off actionable information so that 
they can bring the policing function. So we are adding that 
capability to extend their eyes and ears and do the point-out 
of problems so that they can do the policing functions 
associated.
    Of course, the NATO ships, if they observe bad things on 
the ocean, they are still bound by the Law of the Sea, and they 
will react appropriately. Turkey has agreed--now, I know we are 
still doing some negotiations, but Turkey has agreed in 
principle to
receive any of these migrants that are picked up by our NATO 
ships in this operation.
    Senator Shaheen. So they would go to Turkey, not to Greece.
    General Breedlove. That is correct, ma'am. That is the 
understanding today.
    Senator Shaheen. Thank you very much. My time is up.
    Chairman McCain. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thank you, General Breedlove, for your service to our 
country. Thanks for being here with us today.
    I want to start just by reiterating a concern expressed by 
my colleague, Senator Manchin. It worries me that the U.S. 
accounts for about three-fourths of NATO funding even though 
the European members have an even larger combined economy and 
population, and that defense spending in European countries has 
decreased by 28 percent since 1990. Meanwhile, just over the 
last 12 years, Russia has increased its defense budget by over 
100 percent. This worries me a little bit especially given that 
I think there are some additional uncertainties that come into 
this in light of President Obama's request to quadruple funding 
for the European Reassurance Initiative in fiscal year 2017. It 
worries me about, among other things, what this could say about 
the willingness of our European allies to increase and 
modernize their own defense systems.
    On that note, given the fact that he does want to quadruple 
the funding for the European Reassurance Initiative to $3.4 
billion, the Russian Government is obviously not going to be 
taking this announcement happily. The objective of the spending 
is, of course, to reassure our European allies that we are 
committed to their defense and we are committed to doing what 
we can to try to deter any further Russian aggression.
    I would like to ask you what are the chances that this 
spending, this increased spending, might have the opposite 
effect and that the Russian Government might use increased 
spending levels in this area both as propaganda and as sort of 
a public relations excuse to increase Russia's own military 
buildup along its western border or activity in Eastern Europe. 
How are you addressing the potential that we could, in one way 
or another, unwittingly, unintentionally, be catalyzing an arms 
race on the Russian border with Eastern Europe?
    General Breedlove. So thank you. It is a complicated 
question. If I could dissect it just a little bit to the front 
end of the question about the concern of the investment of our 
NATO nations.
    Clearly we are focused on all of the nations addressing 
their individual requirements. As we discussed earlier, article 
3 of the Atlantic Treaty is essentially, in my words, defense 
begins at home. In other words, nations are required to prepare 
for their own defense.
    The numbers I use, sir, are probably exactly wrong. They 
fluctuate a little bit. Here are the numbers that are pretty 
widely accepted. Since Wales, 16 of our nations have stopped 
their decline in defense spending. Five of the nations at this 
moment are investing 2 percent or better. Now, my personal 
opinion, not that of our government or others, is there is 
about seven of the nations that I think have a very creditable 
internal plan to reach 2 percent within a creditable amount of 
time. At Wales, the decrease in 10 years--I think that a 
shorter time frame would be more appropriate.
    Senator Lee. 17 nations?
    General Breedlove. Seven.
    Senator Lee. Seven nations that would get there.
    General Breedlove. So what we see--and again, this is not 
to be overly optimistic, but I am just reporting sort of what 
we see now is that the nations have taken notice and are 
beginning to address the issues.
    To this latter half of your question, which is the Russian 
reaction to ERI [European Reassurance Initiative], everything 
we do in Europe the Russians react to. Everything we do in 
Europe they use as a part of their propaganda campaign. Every 
small exercise, every big exercise, every investment, when we 
fly a couple of bombers in an exercise, it gets big notice. As 
you have seen, they have a steady flow of aircraft into our 
area.
    So I do not want to belittle what you are concerned about, 
the opposite effect in propaganda. Sir, they are already 
talking about ERI in their propaganda efforts to discredit what 
we are trying to do. I would offer you my opinion, which will 
sound a bit strident, but I believe that Russia is on a path 
right now to recapitalize and reinvest in its military, and it 
is moving forward in that effort, and it will use things as an 
opportunity to label them as a reaction. I believe they are on 
a scheduled plan and they are executing their approach to 
recapitalization, reinvestment, reinvigorating, and probably 
most disturbingly, to use their military as you have seen them 
use it in Crimea, Donbass. They reset the line recently and 
violated Georgian territory again by moving the line about 
1,600 meters south in South Ossetia to cover an energy 
transmission point. Now you see what is going on in Syria.
    So, sir, I think they are on a schedule and they are going 
to execute that schedule. They will use whatever they can to 
address the propaganda piece to talk about it.
    Senator Lee. Thank you very much, sir. I see my time has 
expired.
    Thanks, Mr. Chairman.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman. If you do not 
mind, I was going to defer to Senator Kaine for the moment and 
then go next.
    Chairman McCain. I mind.
    [Laughter.]
    Senator Donnelly. Thank you.
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, General Breedlove. Again, I echo the comments 
about your service. You have addressed most of my questions.
    One area that we have spent a lot of time on in this 
committee kind of at the edges of is the concern about the 
Nation's cyber doctrine, sort of when is a cyber attack an act 
of war, when it is sort of a lesser magnitude, what should our 
response be. Do we have a deterrence doctrine? If we do, do we 
publicize it? If we do not publicize it, does it really deter?
    I am kind of curious about article 5 and collective self-
defense. If you could talk about NATO-level discussions on when 
a cyber
attack of a NATO ally would potentially trigger an article 5 
common defense obligation.
    General Breedlove. Again, Senator, we would love to offer 
some folks to come talk to you about in a classified----
    Senator Donnelly. Great.
    General Breedlove. There are things we can say here, which 
I think are very pertinent to your question.
    When I came to NATO about 3 years ago, NATO was in a very 
nascent place as it relates to cyber activity and how they 
would react to cyber. I must tell you that in an unqualified 
way that has changed. As you know, we have come under cyber 
attack. We are under cyber attack every day. The nations have 
very much understood that there are 28 doors into our Alliance, 
and if we have a few that are massive and well-formed and a few 
that are wide open, we have an issue. We have had a better 
understanding of the collective requirement to address this 
challenge.
    I think I will stop there on that piece. What I would offer 
to you is to have your MLA, maybe the next time you are in 
Europe, take you through Tallinn, Estonia and see the center of 
excellence there. It is an incredibly well functioning place. 
It is putting out usable tools and capabilities to our 
Alliance, and it is making a difference. You would be able to 
see a little bit firsthand if you were to visit that in 
Tallinn.
    Senator Kaine. I would love to do that, and I think this is 
a topic the committee I am sure will be spending a lot more 
time on generally, cyber doctrine.
    The second thing. I am really interested in U.S. activities 
to train the militaries of foreign nations, you know, in terms 
of building up a NATO capacity. Certainly it is the budgetary 
question but also the U.S.--we do some of our best work on the 
training side. In particular, since 2010, you have had a Black 
Sea rotational force, which has been a Marine component 
attached to EUCOM, which has some other responsibilities too, 
crisis response. A lot of their work has been training the 
militaries I guess especially in the southeastern portion of 
the EUCOM geography. Describe a little bit the utility of the 
Black Sea rotational force in its 6 years of existence.
    General Breedlove. So, Senator, if I could, I would really 
like to open that up even a little bit bigger, and I will just 
use the work that the 173rd Sky soldiers have just finished up 
in Ukraine and handed off to another unit there.
    I would tell you that your United States forces, all of 
them, Army, Navy, Air Force, and Marine, are doing some 
incredible things training our allies and partners in Europe. 
The BSERV is an incredible example of that. The nations that 
the BSERV specifically works with, of course, Romania, 
Bulgaria, are incredibly appreciative of what they do, and they 
are benefiting because we see the troops that they train 
serving alongside of us in Afghanistan and other places, and 
they are capable and a lot of times come with zero caveat and 
work and serve right alongside our folks.
    So let me just throw out a couple of other examples, the 
Marine work and now beginning some of the Army work in Georgia. 
Some of the finest soldiers that served with us in Afghanistan 
and Kosovo and other places come from Georgia. At one point, 
Georgia was----
    Senator Kaine. I think they are in the Kurdish region in 
northern Iraq as well.
    General Breedlove. Yes, sir. They are serving alongside our 
NATO partners and allies in many, many places.
    As I mentioned, we have just finished a very successful 
series of training opportunities in Yavoriv in Ukraine where we 
have trained the national guard forces, not exactly similar to 
our National Guard forces but we have just finished that 
iteration. Now we are beginning to train the ministry of 
defense forces in Yavoriv, and this is an incredibly successful 
program and the forces that we have been training have been 
doing very well as they then move forward.
    I know you are aware as well, sir, we have just finished 
our first iteration of training Ukrainian SOF, and we are just 
starting the second class. Again, I just spoke to the 
ambassador now about 4 hours ago about some of the things going 
on in Ukraine, and he is very complimentary of both the work at 
Yavoriv and the work with the SOF.
    So there are multiple examples, Georgia, Romania, Ukraine, 
BSERV. These are all very successful and our allies and 
partners are producing soldiers, sailors, airmen, and marines 
who are serving alongside us in some tough, tough places.
    Senator Kaine. Thank you.
    General Breedlove. I hope I was encouraging there because 
this is a good news story.
    Senator Kaine. I think it is a small portion of the DOD 
budget that we devote to training foreign militaries whether it 
is overseas or bringing foreign military leaders here. In terms 
of bang for the buck, it is one of the best expenses we make. 
Thank you, General.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Graham? Oh, I am sorry. Senator 
Cotton. I am sorry.
    Senator Cotton. Thank you.
    General, thank you very much for your many years of service 
to our country.
    I want to return to something to which you alluded briefly 
in your testimony here and before the House Armed Services 
Committee and about which the chairman asked you. You said that 
Vladimir Putin is weaponizing immigration in Syria. Could you 
explain a little bit more what you mean by that concept?
    General Breedlove. Senator, thank you for the question.
    I think I have to step back a little bit in the conflict to 
start first with Bashar al Assad because this story builds from 
that point, and that is that what we have seen is the Assad 
regime using weaponry that has almost zero military utility. 
Again, as a fighter pilot, I understand the ballistics of a 
weapon. I have delivered a lot of them myself. The ballistics 
of a barrel bomb does not lend itself to military utility. What 
it lends itself to is terrorizing populations, getting them on 
the move, getting them on the road, and making them someone 
else's problem. What we have seen is that continue into this 
weekend, that style of approach by the Assad regime.
    Then I would also say is that what we see in our Russian 
counterparts in Syria is the use of a lot of very 
indiscriminate weapons, and the percentage of precision 
weaponry used is very low. It is hard to tell from what they 
are doing on their targets what their real intent is. What we 
do see is that it is causing a lot of flow of people out of the 
stricken areas, getting them on the road, and getting them into 
someone else's hair. Our ally Turkey, over 2 million that they 
are taking care of. In Jordan, half of that. In Lebanon, a huge 
number. So what we have seen is not only the flow into Europe 
and other places caused by these efforts, but an intense flow 
into the neighboring nations.
    I have used that word. I use that because I cannot see the 
military utility of some of the actions being taken by these 
individuals in the conflict.
    Senator Cotton. Most of these migrants and refugees are 
Sunni Arabs from Syria?
    General Breedlove. I cannot say that because we do see a 
pretty large migration flow still from Afghanistan and other 
places.
    Senator Cotton. From Syria.
    General Breedlove. From Syria, I do not want to hazard a 
guess there, sir. I will get you an answer to that.
    The information referred to follows:

    Yes. We assess the Syrian refugees are mostly (80% or greater) 
Sunni Arabs.
    The country of Syria is estimated 90% Sunni Arab. The UNHCR (the 
official organization tracking this) estimates the number of registered 
Syrian refugees that have left Syria is 4.182 million. Turkey has 
82,715, 789. Lebanon has 81,067,785. Jordan has 8636,040. Egypt has 
8119,301. N. Africa has 828,027.

    Senator Cotton. While there not be military application, it 
would be a convenient political development if Bashar al Assad, 
who represents a minority sect in Syria, were to ethnically 
cleanse much of his country of Sunni Arabs, which have been a 
historic source of resistance to Israel, destabilizing Jordan 
and Turkey, two key U.S. allies on its border, as well as 
destabilizing much of Europe and the Balkans and Eastern and 
Central Europe.
    General Breedlove. Yes, sir.
    Senator Cotton. Is it a long-term goal of Vladimir Putin to 
ultimately divide the European Union and NATO?
    General Breedlove. Sir, I said that in my written 
testimony, and I think I actually said it in my opening 
statement as well. I do believe that one of the primary goals 
of Mr. Putin is to find a division in NATO and find a division 
in the European Union.
    Senator Cotton. We often speculate about the possibility of 
hybrid warfare, as it is called, in one of the Baltic 
countries, Estonia, Latvia, Lithuania. That would be a very 
high risk maneuver if you are thinking about it from Vladimir 
Putin's standpoint. Right?
    General Breedlove. So I believe Mr. Putin, as I said, does 
understand article 5 and understands what a NATO border is as 
it relates to conventional force. I do not believe that he 
feels necessarily restrained in using the other tools of 
national power, diplomatic, informational, economic in these 
areas.
    Senator Cotton. If you look at the political controversy 
that this flow of migrants and refugees has created over this 
last year in Europe, from Vladimir Putin's standpoint, it might 
appear that this is a much lower risk way to divide Europe 
against itself than that kind of risk of invading a NATO 
country. Correct?
    General Breedlove. Sir, I cannot make that judgment for Mr. 
Putin, but what we have seen is that this is bringing great 
pressure on the nations of Europe.
    Senator Cotton. What do you think is going to happen as 
winter turns to spring and we see more migrants and refugees? 
Just in the last week to 10 days, we have seen the Visegrad 
countries meet with the Balkans excluding Greece from this 
meeting and discussions about shutting the Macedonian-Greek 
border, and therefore cutting off the land bridge for refugees 
and migrants going into Austria and Germany. Yet, Chancellor 
Merkel has just said that she remains committed to keeping her 
borders entirely open. What is the end game here for Europe?
    General Breedlove. Sir, first to the first part of your 
question, I was just in the Balkans the last--about 2 weeks ago 
visiting everyone from Montenegro to Serbia actually. On all of 
their minds is the concern of what happens in the spring. Also, 
what happens in the dynamics if some nations close borders and 
others do not. It could shift the pattern through nations that 
are even less capable of addressing these flows. So this 
remains a big concern for the nations of the area.
    Senator Cotton. Thank you, General. My time has expired. I 
do think it is always important to remember that as troublesome 
as these flows of migrants and refugees are, it is merely a 
symptom, and the ultimate disease is the Syrian civil war. The 
U.S. administration bears responsibility for that disease.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you for all your service to our country.
    When you were here before, when you were kind enough to 
appear before us, one of the subjects we talked about was 
Russian incursions into areas that they traditionally have not 
been, Russia's being intercepted along Great Britain's south 
coast, and that in order to avoid conflict, rather than going 
head on with them, sometimes we have worked them out, but they 
have not gone into greater conflict with them.
    Is this continuing apace as great a rate as it was before? 
How long do you think this will continue, and what message does 
it send to Putin that he can continue to do these things?
    General Breedlove. Sir, thank you. We did talk about that, 
and yes we have seen the Russian Federation aircraft in places 
that we have not seen them before, and that still continues to 
today. I need to be intellectually honest. I would tell you 
that it has decreased a little bit. I think that is primarily 
because there is a great focus right now on Syria. Assets are 
dedicated to Syria, other things. I am not sure that we would 
not see that go back up after a Syrian conflict. It may just be 
a question of capacity and focus, et cetera. So we need to be 
honest in our reporting that it has dipped a little bit as we 
have seen Syria pick up.
    I would just like to say--I would not question the words 
you use, but our responses to these things in these 
unconventional places have not been that we yield but we do 
what is professionally correct in those responses in those 
spaces.
    Senator Donnelly. What is your worst scenario in regards to 
Russia? What are the things that, you know, when you begin a 
day, you go this would be the worst case that could happen?
    General Breedlove. I would really love to do that in a 
classified sense. I would tell you that we see a force that is 
becoming more capable, more fully qualified. We see a force 
that is being used routinely in ways that we have not seen in 
years. I have been pretty straightforward about that what we 
see now in Eastern Europe, that force is again a tool used to 
change internationally recognized borders. Russia continues to 
occupy the Ukrainian peninsula of Crimea. Force was used to go 
across the international border of Ukraine in the Donbass, and 
some of those forces remain. My concern, sir, in an 
unclassified setting, is that we see a force that is, once 
again, being used in ways that we thought were over in
Europe.
    Senator Donnelly. It has appeared--and I do not know if 
this is the exact way to describe it, but it is almost as if 
Putin in Russia has talked about their nuclear arsenal in a 
fairly casual way. When you look at this, what do you think we 
should make of it? One of the things that has been discussed 
is, as our conventional strike munitions and conventional 
strike ability increases, they use this as an effort to try to 
balance against it. What is your view of how fast and loose 
they actually are in this area?
    General Breedlove. Sir, I have remarked more than once 
publicly and in testimony that I think this is irresponsible 
talk or irresponsible behavior, the way that nukes are talked 
about and they are talked about from the relatively junior 
military levels right up to the most senior members of the 
Russian Federation leadership. None of us in the West believe 
that this is responsible behavior in the way that nukes are 
discussed.
    What do we do about it? First, we do not engage in that 
kind of discussion. Second, I think what is really important to 
me is that we retain a creditable, capable, nuclear force, and 
that the world sees that force as being creditable and capable.
    To your other question that our increasing capabilities, as 
it relates to precision, conventional attack and other things, 
this is one of the reasons that we hear these discussions. If a 
situation is not going well, the other side discusses that 
nukes could be used to escalate, to de-escalate, et cetera. I 
do not think that we should dampen our ability to use our 
conventional force in the way that we have used it in the past.
    Senator Donnelly. Thank you. My time is up.
    I just wanted to ask you do you think that Vladimir Putin 
believes that article 5 would be enforced, that all of the 
different members would come to the other member's defense if 
he took action in one of the NATO countries.
    General Breedlove. I believe he absolutely understands what 
article 5 means in relation to a NATO boundary. I would say, 
Senator, that the nations of NATO at the Wales Summit were very 
demonstrative, very quick about the absolute commitment to 
article 5 collective defense.
    Senator Donnelly. Thank you, and thank you so much for your 
service to the country.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you, General. You have done a really 
good job in your position here.
    It is 2016. Is it fair to say that Russia had successfully 
dismembered the Ukraine?
    General Breedlove. Sir, I think that I am not sure I would 
use those terms, but the way I would characterize it is Russia 
is right now holding the levers to bring great pressure and to 
adjust the way things happen in Kiev and by fielding a force in 
the Donbass that will give him those levers into the future.
    Senator Graham. Well, if you do not like ``dismembered,'' 
what word would you use?
    General Breedlove. Sir, I think he is now able to exert 
great influence on what happens in Ukraine.
    Senator Graham. To the Ukrainian people's detriment and our 
detriment?
    General Breedlove. Sir, I believe that the Ukrainian people 
voted for a different agenda when they elected Mr. Poroshenko 
and Mr. Yatsenyuk.
    Senator Graham. So it is 2016. Do you agree with me that 
Russia has intervened on the side of Assad in a significant 
capacity?
    General Breedlove. I do believe, Senator, and I have said 
it before that I believe the main effort of the Russian forces 
in Syria are to support the Assad regime.
    Senator Graham. The Russians have been bombing people we 
have trained in Syria. Is that correct?
    General Breedlove. Yes, sir.
    Senator Graham. Are the sanctions against Russia working?
    General Breedlove. Senator, I think that the combination of 
economic pressure, the drop in the fuel prices, and the 
sanctions that are on Russia--the combination of those have had 
effect.
    Senator Graham. Are they working? Are they changing Russian 
behavior?
    General Breedlove. Some months ago or maybe even a month or 
so ago, I would have answered no. I think today in the 
classified sense I could come to you and say there are a few 
things we are beginning to see happen.
    Senator Graham. Well, I would like to have that briefing 
because my answer would be no. I do not see them changing in a 
positive way at all. Maybe you should do this in a classified 
setting.
    What are we not doing that we could do that would change 
Russian behavior? Do you want to talk about that in a 
classified setting?
    General Breedlove. Sir, I would love to do that.
    Senator Graham. Okay.
    Let us talk about Turkey. Are you familiar with the Syrian 
Defense Forces?
    General Breedlove. I am, sir.
    Senator Graham. What percentage of that force is Kurdish?
    General Breedlove. That question I simply do not know, and 
I will have to get you an answer to that.
    The information referred to follows:

    CENTCOM estimates the YPG (Kurds) forms 80-85 percent of the Syrian 
Defense Forces (SDF). We project YPG to be anywhere from 30,000-40,000 
fighters. Press consistently reports the Arab component (tribes and 
opposition groups) to be around 5,000.

    Senator Graham. Is it fair to say that Turkey has a problem 
with what we are doing inside of Syria with the Kurds?
    General Breedlove. Sir, I do believe that we have 
disagreements with our great ally over some of the approaches 
we take with the Kurdish forces in north Syria.
    Senator Graham. Do you see any scenario where the Syrian 
Defense Forces in their current construct could take Raqqa away 
from ISIL?
    General Breedlove. Sir, if I could ask you to ask that of 
the CENTCOM commander, I think it would be a better place to 
answer that.
    Senator Graham. Okay.
    From a NATO perspective, in terms of Afghanistan, do you 
believe that NATO nations will follow whatever we do in terms 
of troops in 2017?
    General Breedlove. Sir, I do believe that the NATO nations 
are willing to follow our lead. Actually I cannot speak for 
those nations, but several have intimated that they would stay, 
if required, to get the mission done.
    Senator Graham. Would you recommend against going to 1,000 
U.S. personnel in 2017 in Afghanistan, given what you know 
about Afghanistan?
    General Breedlove. Sir, what I have said is that I believe 
that we need to accomplish the mission. We are there now, doing 
now, and that until we see that mission accomplished, I think 
we need to stay----
    Senator Graham. Have we accomplished that mission?
    General Breedlove. Not yet, sir.
    Senator Graham. The counterterrorism is a mission that we 
are trying to accomplish to stop an attack on the homeland. Is 
that correct?
    General Breedlove. Counterterrorism is an important part of 
that. Yes, sir.
    Senator Graham. During your time in the military, have you 
seen more threats to America?
    General Breedlove. Sir, I think that we are in one of the 
toughest situations that we have faced in decades right now.
    Senator Graham. So do you think it is smart for Congress, 
in light of what you just said, to reimpose sequestration next 
year?
    General Breedlove. Sir, allow me to speak to the European 
Command and my mission. I have said that sequestration would be 
very tough on our ability to accomplish our mission.
    Senator Graham. Do you think it is the signal we want to 
send to our NATO allies as we tell them to up their spending 
and we cut ours?
    General Breedlove. I think it is important for us to lead, 
sir.
    Senator Graham. What kind of signal would it send to 
Russia?
    General Breedlove. I think they are watching exactly what 
we do with our modernization programs and our presence programs 
and our employment overseas. It is important that we sustain 
the appropriate presence and capability forward.
    Senator Graham. Thank you for your service.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    General, thank you for being here.
    A quick question that is really to follow up on questions 
that Senators Lee and Cotton touched on.
    The divided West is a great threat for you in doing your 
job. One of the things you mentioned that sanctions seem to be 
having some effect. Do you believe that they are prepared to 
renew those sanctions going into summer in your discussion with 
our partners?
    General Breedlove. Sir, I learned a long time ago as the 
Supreme Allied Commander of NATO that I cannot speak for the 
nations. So I would defer on that question. I think that that 
would be much--I would be on shaky ground as a military man to 
speak to the political positions of the nations. I am sorry to 
dodge your question, but that is a realistic answer I think.
    Senator Tillis. What is your personal recommendation? Do 
you think that it is a tool that you hope that the renewal of 
the sanctions go back into place? Rather than speculate on the 
positions, are you an advocate for continuing the renewal of 
the sanctions?
    General Breedlove. I am, sir. The way I look at this it is 
one of our tools. As I spoke about today, I think that our 
opponents use all of the major tools of a nation's power. We 
use a simple model called DIME, diplomatic, informational, 
military, and economic. The economic piece is what you are 
talking about. Our opponents use all of those tools to bring 
great pressure on nations, and we should not take any of those 
tools off of the table.
    Senator Tillis. Thank you.
    General, do you think that--or could you talk a little bit 
about the linkage of Putin's plans in Ukraine with respect to 
Syria? Is there some sort of strategic linkage there? Can you 
describe that if there is?
    General Breedlove. Sir, yes. I do not think that Mr. Putin 
nor the leaders of--the small group of leaders of the Russian 
Federation do anything in isolation. I think all these things 
are connected. As I have answered other of your colleagues 
today, I think that one of the major goals--or two of the major 
goals of Mr. Putin is to bring dissolution to either NATO or to 
the European Union, preferably both. If Mr. Putin can find a 
way to fracture those alliances or organizations, it makes it 
much easier for him to accomplish his larger goals in Europe at 
that point. I do not think that any of these operations of Mr. 
Putin from Syria to the Arctic are disassociated. I believe 
they are all brought in a broad sense.
    Senator Tillis. General, in your written testimony, you 
have commented that our current force posture in Europe has 
been based on Russia as a strategic partner. I think you 
described it as hugging the bear. That is obviously not 
working.
    So what concrete steps do we need to take to change our 
force posture in Europe to be able to deter Russia more 
effectively?
    General Breedlove. Thank you, sir.
    So if I could just very briefly on NATO, I think that what 
NATO needs to do I described earlier as bringing the entire 
force of NATO to an increased readiness and responsiveness. In 
Wales, we focused on the NRF, the VJTF, and some of the smaller 
forces, and we are delivering that. Now we need to bring focus 
across all of the force to bring readiness and responsiveness 
up.
    In a U.S. context, as I described in my opening statement, 
I think it is sort of a three-step approach, and it would take 
me about half a minute to lay that out.
    First and foremost, our forward position forces are 
incredibly important. Permanently forward stationed forces are 
the optimum.
    Understanding the environment that we are in, we then look 
at two other steps to address forward presence. One is that we 
will look at and are and a part of ERI is prepositioning 
forward materials that we can rapidly fall in on to rapidly 
increase our posture. Then the second piece is those heel-to-
toe, fully funded rotational forces that use the prepositioning 
or come over to have presence and exercises. So that is sort of 
the step two basket.
    The step three basket is a little tougher to describe, but 
in shorthand, it is we need to be able to rapidly reinforce. 
That sounds very straightforward. It is not. Remember that 
Russia has created a very dense pattern of A2AD, anti-access/
area denial. We need to be investing in those capabilities and 
capacities that allow us to enter into an A2AD environment and 
be able to reinforce, and then some of the investments of the 
European Reassurance Initiative are on the ground, such as 
improving railheads, railroads, improving our ports, and our 
airfields again so that once we puncture the A2AD, we can 
rapidly address our issues.
    So it is a three-step approach. Look at our forward-
stationed forces. Look at our rotating forces and prepositioned 
materials, and then ensure that we can rapidly reinforce. That 
is the framework in which I am trying to drive the conversation 
with my leadership.
    Senator Tillis. Thank you, General.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chair.
    General, I want to thank you again for your service. I want 
to thank your wife. I know that you have committed decades to 
serving our country. I think you have done it in an outstanding 
manner, particularly your current billet.
    I want to follow up on Senator King's questions and in some 
ways ask similar questions that Senator Graham did.
    It is 2016. Do you think it is safe to say that Russia has 
successfully militarized the Arctic?
    General Breedlove. Sir, I do believe that we see a pattern 
there that concerns many of our nations and partners. As you 
know, we share the Arctic with our other NATO ally Canada and 
then six other allies and partners of NATO. Each are concerned 
with what they see happening in the Arctic where we see the 
creation of intelligence and surveillance capabilities, 
weaponization such as surface-to-air missiles, coastal defense 
cruise missiles, et cetera, et cetera.
    Senator Sullivan. Four new BCTs, a new Arctic command, 13 
new airfields.
    General Breedlove. Yes, sir.
    Senator Sullivan. So is it not safe to say that Russia has 
successfully militarized the Arctic?
    General Breedlove. They have certainly increased their 
capability and capacity there.
    Senator Sullivan. Can you describe a little bit--and you 
and I have talked about it, but really how massive the last 
year the two different Arctic military exercises were? These 
were huge. Maybe you cannot talk about it in this setting, but 
I will ask the question anyway of whether or not we were even 
aware that they were going to happen or happening. When you 
move tens of thousands of troops and hundreds of aircraft and 
dozens of ships, normally that is something the United States 
military has an inkling about. It seems in this case, they did 
it and we were pretty unaware. Can you talk about that a little 
bit?
    General Breedlove. I would like to have my staff work with 
yours on some more classified answers to fully flesh this out. 
What I would say is I agree with you that we have seen some 
very demonstrative exercises, and in certain ways, they did 
absolutely surprise us. One of the things that surprised us is 
how one of those exercises then morphed into a larger exercise 
in the western military district so that we saw a very large 
what I would call strategically focused exercise, not that an 
exercise in the Arctic alone is not strategic, but we saw it 
morph into a bigger exercise.
    Senator Sullivan. When Vladimir Putin does those kind of 
things, as you mentioned before, that is not normally--there is 
usually something to that. Correct?
    General Breedlove. Sir, as I said before, I think he has 
taken a very strategic approach to everything he does.
    Senator Sullivan. Let me ask another question. Secretary 
Carter, General Dunford--they have all mentioned--we have 
talked about the Arctic in front of this committee, how we are 
late to the game. You know, if you look at the DOD's Arctic 
strategy, it is pretty much a joke. It is 13 pages, 6 of which 
are pictures. It mentions climate change five times and 
mentions Russia solely in a footnote. So I think we provided 
proper oversight here and, in a bipartisan way, move forward on 
requiring the Secretary of Defense to put forward a no-kidding, 
real strategy and an operations plan for the Arctic. We got a 
commitment from Secretary Carter and General Dunford to make 
sure that is a very robust OPLAN for the Arctic. Can I get your 
commitment that we would have the EUCOM's participation in that 
as well? I think it is going to be important.
    General Breedlove. Absolutely, Senator. As importantly, 
NATO is beginning to take a look at this as well.
    Senator Sullivan. Great.
    Let me ask more specific questions. You know, as Russia is 
building up--you have been in Alaska recently. You are aware 
that our Department of Defense is looking at building down in 
the Arctic, getting rid of the only airborne brigade combat 
team in the Artic, the Asia-Pacific, the only mountain-trained 
Arctic BCT in the entire U.S. military. That is the 425. You 
talked about a permanently forward presence. You talked about 
rapid reinforcement capability. This is a unit that you 
uniquely can do all of those things and fight in the Arctic.
    To his credit, General Milley is taking a look at this, and 
he made some comments last week that he thinks that maybe given 
the situation with regard to Russia, with regard to Korea, that 
the Army should reverse this decision, what I think is a 
strategically short-sighted decision. Admiral Harris and 
General Scaparrotti last week were supportive of that decision 
by General Milley to keep the 425.
    Do you support that decision by General Milley? What do you 
think that that does to show Vladimir Putin resolve, that hey, 
wait a minute, things have changed? They are rapidly building 
up the Arctic. We have this ERI initiative, but we also need 
forces out east. The easiest way to keep the American resolve 
is to just keep our best Arctic warriors in place. Do you 
support what General Milley is doing? How do you think Vladimir 
Putin would view keeping that 425, which by the way, as you 
know, the Russians watch them train all the time? They do an 
airborne jump. The Russians do an airborne jump. They are very, 
very aware of this unit and its capability. Can you comment on 
those questions?
    General Breedlove. Senator, I think it is important that we 
keep this capability and that we maintain its currency and 
continually address its capability to do its mission.
    I think Mr. Putin understands physics, and the physics are 
that those forces in the north across the pole are as close if 
not closer than many other forces we have in our inventory. The 
speed and response of that set of forces and capabilities are 
very important, and I think Mr. Putin understands that.
    Senator Sullivan. So do you support what General Milley----
    General Breedlove. We need to keep this capability, sir.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you very much.
    Thank you, General.
    I have been in and out, but let me ask you about--let me 
get back to Ukraine and then maybe touch on the refugee crisis 
too.
    We have got these frozen conflicts throughout the region, 
Moldova, Transnistria, Nagorno-Karabakh. In your judgment, is 
Ukraine now to be added to that list of frozen conflicts or is 
the situation a little too kinetic there for us to know?
    General Breedlove. Sir, thank you, and please do not take 
this as any sort of a disagreement. I really do not like the 
term ``frozen conflicts.''
    Senator Wicker. It is a term that is widely----
    General Breedlove. Yes, sir, absolutely. That is where I 
was going. It is a term that is widely used, but I would like 
to point out that most of these are still hot and people are 
dying in some of these places. There are four or five of them. 
Georgia, as I mentioned earlier--the Russians recently moved 
the line in South Ossetia another 1,600 meters to the south, 
and it took over a major energy transmission point.
    Senator Wicker. What were the casualties there?
    General Breedlove. That was done bloodless. They simply 
moved the line.
    In Nagorno-Karabakh, we routinely have days where soldiers 
are injured and occasionally killed there.
    Transnistria. We have not seen any actual injuries, sir, 
but we have seen the reinforcement, refitting, and 
strengthening of that garrison in Transnistria.
    South Ossetia, Abkhazia, still extant.
    Now I believe that Ukraine is in a position where the 
Russians would like to maintain the capability to continue to 
put military pressure on Kiev via that conflict. It is anything 
but frozen. As I said, yesterday about 71 engagements in the 
last 24 hours in that area, and over 450 engagements in that 
area over the last week.
    Senator Wicker. What term would you prefer that we use?
    General Breedlove. We are wrestling with that, sir. I think 
``frozen conflicts'' is good because people recognize it. I 
would just like to point out that they are really anything but 
frozen. Some of them I would call pretty hot.
    Senator Wicker. In your professional military judgment, is 
the current situation, as it stands in Ukraine, helpful or 
harmful to Mr. Putin's long-term interests?
    General Breedlove. Let me answer the easy question first. 
The situation in Ukraine is absolutely unhelpful to the people 
of Ukraine's long-term interests.
    Senator Wicker. No question about it.
    General Breedlove. In Kiev, there is no question about 
that.
    I think that Mr. Putin very much wants to have a hand in 
the direction of Ukraine, a hand in being able to regulate 
their desire to join the West, a desire to keep pressure on the 
economic and political decisions of Kiev. I think that his 
interests are to maintain enough pressure and influence in the 
Donbass to be able to shape that. So I think it is in his 
interest to be able to pressure Kiev through the tool of the 
Donbass.
    I am not sure that I am ready to answer whether it is in 
his long-term interests as it relates to his own national 
concerns. Is that the question you are asking, Senator?
    Senator Wicker. Yes.
    General Breedlove. Can I get back to you on that?
    Senator Wicker. That would be great.
    Senator Wicker. As far as you have observed, is the 
Ukrainian Government in Kiev working together?
    General Breedlove. Sir, I have seen some very good things 
and some challenges. I think that there is a great commitment. 
I have sat down personally several times with Mr. Poroshenko 
and with Mr. Yatsenyuk, and I do think both of those 
individuals have the best interest of their nation in the 
future. I think that there are some pretty tough structural 
problems that they have had to address. Frankly, I think their 
people expect a lot from them. As I mentioned earlier in this 
testimony, I think that some of the change they need to make is 
pretty hard to take when they are on a front and militarily 
engaged. They face some pretty tough challenges ahead.
    Senator Wicker. Well, thank you very much.
    Let me, Mr. Chairman, if I might, just ask the General 
briefly with regard to the refugee situation. We had a question 
I think from Senator Manchin when I was at the hearing earlier 
about the possibility of infiltration, and certainly that is a 
concern.
    Would you comment as to the destabilizing effect in the 
territory of our European allies of this influx of immigrants 
and migrants passing through and the prospect for that either 
increasing or being mitigated somehow?
    General Breedlove. The destabilizing effects are 
multifaceted. The easiest ones to speak to is as I have 
described before and I have in my written testimony that I 
believe there is criminality, terrorists, and foreign fighters 
in those flows. Those all have their own form of destabilizing 
effect, criminality in just moving of humans and moving of 
drugs and other things, those kind of people using the flows to 
do that, terrorists, who have ill-intent in the West. Then just 
returning foreign fighters who have skills and may not actually 
be returning with any ill-intent, but when they get home and 
they have no economic opportunity and others, what do they 
eventually do with those skills? So there is a lot of 
destabilizing effect of this criminality, terrorism, and 
returning foreign fighters.
    The other piece that is, I think, more widely understood is 
just the destabilizing effect economically and straining the 
social fabric of these nations as these large flows of people 
challenge already challenged governments and social systems as 
they arrive. I think there is a multifaceted challenge to the 
nations of Europe.
    Senator Wicker. Thank you very much.
    I appreciate the chair's indulgence.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    With regard to the European Union, someone wrote recently 
that oddly you would think the European Commission, Brussels, 
would be the one that would lead a unified effort to deal with 
the migrant crisis. In fact, in essence, rightly or wrongly, 
legally or otherwise, they are the ones that are blocking the 
nation states from taking action that those states would 
normally take--or attempting to block them. Is that correct?
    General Breedlove. Senator, being a military officer and 
not a leader of one of these nations, I am not sure I am really 
qualified to say that. What I would say is that----
    Senator Sessions. The European rules--and the European 
Union is not making immediate decisions that would facilitate a 
more effective control. Is that not correct?
    General Breedlove. I believe, sir, that there could be 
efforts made that could bring more unified pressure.
    Senator Sessions. One of the things we all need, I think, 
to understand here is just because we got a group of nations 
together that pretend to be an effective leadership, sometimes 
they undermine the ability of action to actually occur that 
could be beneficial.
    Is it still true that a high percentage of these migrants 
are young males?
    General Breedlove. I believe that to be true, Senator.
    Senator Sessions. Well, let me take another subject. Thank 
you for your great service--you and your wife--and the 
commitment you have made to the country.
    You have spent now almost 3 years in Europe. You had time 
in Aviano and Ramstein and other places. So you know the region 
well. Did the Europeans and NATO--are they willing to improve 
and increase their share of funding for the defense of Europe? 
You have raised that a number of times. Would you briefly tell 
us your latest communication with the region about what they 
need to do and what achievements have occurred in the last 
several years, not promises for the future?
    General Breedlove. So the numbers I have used today once, 
Senator, are again not going to be perfect, but the numbers 
that we see now in Europe follow the following line. About 16 
of our nations have stopped the decline in their budgets, not 
perfect, but a first step.
    Senator Sessions. Well, it is worse than not perfect. I 
mean, they have been declining and they are below their 
commitment of 2 percent, most of them. Are they not?
    General Breedlove. Only five now, sir, are at 2 percent or 
better. I would offer to you that I believe there are about 
seven now that have a realistic plan to attain 2 percent in a 
realistic amount of time. So, again, not perfect numbers, but 
this is an improvement since Wales. I do not want to overstate, 
but it is an improvement since Wales.
    Senator Sessions. Well, of course, we have a real interest 
in Europe in that they be able be free and independent and not 
be vulnerable to encroachment from the Russians.
    However, I mean, I have to ask the President's request for 
$3.4 billion in the European Reassurance Initiative--how much 
of that has been matched by the Europeans? Do they have any 
formal commitment to increase their spending for similar 
projects?
    General Breedlove. Sir, I cannot speak to individual 
commitments at this time. What I have seen, not from the $3.4 
billion, because it has not been delivered yet, but thank you 
for the first 2 years of ERI. As you know, it was about just 
under a billion the first year and about $800 million the 
second year. The improvements that we have used that to make in 
the forward nations to railheads, ports, and airfields----
    Senator Sessions. Well, let me just--so my time would not 
be eroded here. This is very troubling. So a European 
delegation from the parliament group was here, and I asked them 
to increase their spending, and the head of the delegation 
responded quite frankly. He said, Senator, we agree it is 
unacceptable that the United States pay 75 percent of the cost 
of NATO. So now we have this problem that we need to have some 
more resources there, and we add $3.4 billion and these 
countries are not even putting in their fair share.
    I am wondering do they have a will to survive themselves 
and/or have they just gotten in the habit of expecting us to 
step up to the plate to fund their defense. It is an 
unacceptable thing, as the parliamentarian said.
    Would you have any final comments?
    General Breedlove. Well, sir, on that we observed the same 
thing over the last 20 years when the nations of Europe were 
trying to treat Russia as a partner. They all took a vector 
which was decreasing budgets. Again, I do not want to 
overstate, but what we have seen since Wales is at least a 
turning in the bow of the ship. It is not perfect yet.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan has one additional 
question.
    Senator Sullivan. Thank you, Mr. Chairman.
    General, I appreciate your focus on all instruments of 
American power as part of our strategy. Last week, there was a 
very good article, front page article, in ``The Wall Street 
Journal'' on the importance of the beginning of LNG shipments 
from the United States, because we are now, once again, the 
world's energy super power in terms of oil and gas production--
LNG [liquified natural gas] shipments from the United States to 
Europe, to some of the countries we have been talking about, to 
some of the countries that are at risk of Russian energy 
blackmail as part of their policies.
    How important is that part of our national power as an 
instrument for the longer-term strategy to thwart Russian 
aggression and to provide a moral boost to some of these 
countries over there that feel like they are under the boot of 
the Russian energy policies? That certainly came out in this 
article. I do not know if you had the opportunity to read it.
    General Breedlove. Senator, I am not sure I have read that 
exact article, but the concept is absolutely applicable, as we 
have discussed a little bit here today as well.
    Just like you stated, Russia uses every element, and that 
economic element is both in the terms of pressure on returning 
payments and calling in loans, et cetera. A huge part of that 
economic tool that is used is, as you correctly state, fuels in 
all manners are used as a tool, restrictions and pricing of 
those fuels. So anything that we can do to broaden the 
capability of the nations to be able to deal with that pressure 
I think is a good possibility, a good process.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman McCain. General, would it be of great concern to 
us if Russia developed a capability to sever our transatlantic 
cables?
    General Breedlove. Yes, Senator, it would. Or excuse me. 
Chairman, it would.
    Chairman McCain. Thank you.
    General, we really appreciate your appearances before this 
committee, but most of all your outstanding leadership and we 
look forward to seeing you again in the future. To me, you are 
the very best of what we expect of our military leadership, and 
I thank you.
    Jack?
    Senator Reed. I simply want to second the chairman's 
comments very sincerely and very appreciatively.
    General Breedlove. Thank you, sir.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                 moscow's activities in eastern ukraine
    1. Senator Ayotte. What kind and how many Russian military 
personnel are operating in eastern Ukraine?
    General Breedlove. [Deleted.]

    2. Senator Ayotte. What kind of military equipment has Moscow given 
the separatists?
    General Breedlove. [Deleted.]

    3. Senator Ayotte. Is there Russian military equipment in eastern 
Ukraine? If so, what type and how much?
    General Breedlove. [Deleted.]
                              aegis ashore
    You note in your prepared statement that European Command is 
completing work on Phase 2 of the European Phased Adaptive Approach in 
Romania, which consists of an Aegis Ashore Missile Defense System 
(AAMDS) that will provide enhanced medium-range missile defense 
capability.

    4. Senator Ayotte. How important is it that NATO certify that the 
European Phased Adaptive Approach has reached 24/7 Initial Operating 
Capability before the Warsaw Summit in July?
    General Breedlove. The operational certification that NATO is 
capable to exercise command and control of all elements of the European 
Phased Adaptive Approach is a critical milestone for the declaration of 
Initial Operating Capability at the Warsaw Summit in July. The United 
States has offered the Aegis Ashore Missile Defense System in Romania 
for the defense of NATO European Territory as a U.S. national 
contribution under NATO Command and Control on a persistent basis. The 
operational certification proves that NATO is ready, trained and able 
to execute Command and Control of this significant increase in 
ballistic missile defense capability.

    5. Senator Ayotte. Do you believe it will be technically ready by 
then, including the command and control systems?
    General Breedlove. Yes. Both USEUCOM and NATO are continually 
testing the operational command and control systems and all of the 
supporting components: the data links, communications systems, 
interfaces, situational awareness displays as well as the planning 
systems and the personnel and processes that support these systems. 
USEUCOM and NATO will conduct operational certification exercises, 
CAMDEX 16, under U.S. command and control to test the operational 
integration of the Aegis Ashore site in Romania. We will also use 
exercise STEADFAST ALLIANCE 16 under NATO command and control, to 
demonstrate the effectiveness of the systems, processes, and personnel 
to conduct the NATO BMD mission described as the NATO Initial 
Operational Capability. From what I have seen of these preparations, I 
am confident that we will be able to achieve a level of system support 
for command and control processes that will allow the U.S. and NATO to 
be successful in missile defense operations.

    6. Senator Ayotte. Not only does this system help protect our 
European allies, but it helps protect our forward deployed troops, 
correct?
    General Breedlove. Yes. However, it is important to understand the 
context of what threat is countered by Aegis Ashore ballistic missile 
defense system. This system, utilizing the Standard Missile-Three (SM-
3) interceptor, is designed to counter medium and intermediate range 
ballistic missiles outside of the Earth's atmosphere. The Aegis Ashore 
BMD systems deployed to EUCOM through the European Phased Adaptive 
Approach are sized, scoped, and postured to defend against current 
medium and intermediate range ballistic missile threats originating 
from Iran. Those U.S. forces in the EUCOM AOR under threat from these 
Iranian systems within the coverage area of Aegis Ashore sites can and 
will be defended by the Aegis Ashore sites. For consideration, 
ballistic missile defense is also more than the Aegis Ashore system, 
and EUCOM is poised to conduct and support the full range of missile 
defense operations (active, passive, and counter force) to defend our 
Allies and partners as well as U.S. forces and interests as directed by 
the President.

    7. Senator Ayotte. How important is it that we proceed with Phase 
3, which consists of an Aegis Ashore Missile Defense System in Poland 
by 2018?
    General Breedlove. The construction of the Aegis Ashore Missile 
Defense System in Poland and the deployment of the forces and 
interceptors under EPAA Phase 3 are vital to keeping pace with the 
advancement in ballistic missile threats. For example, Iran has 
demonstrated an active, on-going, and fully resourced ballistic missile 
development and flight test program. The continued proliferation of 
missile technologies, development, and test of systems by Iran coupled 
with the possibility that such technologies may fall into the hands of 
non-state actors are worrying to me as the USEUCOM Commander. 
Additionally, the capabilities Phase 3 will bring us in terms of longer 
reach and expanded coverage using the SM-3 BLK IIA interceptor go a 
long way to providing defenses to U.S. Forces deployed in our Area of 
Responsibility as ballistic missiles increase in number, range, and 
capability.

    8. Senator Ayotte. In your prepared statement, you said that 
``Another shared concern is defense of the Aegis Ashore sites.'' Can 
you provide more details regarding your concerns about threats to these 
sites?
    General Breedlove. The issue, as I see it, is despite all evidence 
and communication, exchanges of information, and efforts to be open and 
transparent, Russia has only responded with mistrust and senior level 
hostile rhetoric threats towards the Aegis Ashore Missile Defense 
sites. These sites are neither postured nor configured for use against 
Russian strategic capabilities, and are not technically capable against 
Russian strategic missiles. Despite this fact, Russia has closed every 
door to open discussion and transparency. Russia's open hostility 
towards these facilities, and threatening language used by some 
officials, have raised concerns within the DOD and among some Allies 
that the sites will need to be defended in a comprehensive manner 
against a wide range of air and missile threats.
    In addition to stout Russian opposition, there are emerging 
concerns in NATO regarding asymmetric threats from proliferated cruise 
missiles. This new threat capability that we cannot ignore is 
increasingly available due to worldwide proliferation and instability.
    Both of these factors have led to discussions and concerns 
regarding defense of these sites which I, quite frankly, share. Aegis 
ballistic missile defense is configured to only defend against simple 
ballistic missiles operating outside of the atmosphere. The capability 
is sized, oriented, and configured to address threats originating from 
outside the Euro-Atlantic area. Given these potential new threats, it 
is prudent military planning for EUCOM to fully support analysis of 
potential defensive measures by the host nations, NATO, and DOD.

    9. Senator Ayotte. How important is it that NATO be asked to defend 
these sites?
    General Breedlove. It is absolutely vital that NATO is involved in 
the discussion. Both Romania and Poland are NATO nations who have 
agreed to both host the Aegis Ashore Ballistic Missile Defense sites 
and defend them. The sites themselves will be the U.S. contribution to 
NATO Ballistic Missile Defense mission against threats originating from 
outside the Euro-Atlantic area. If the threat changes in a way a 
country feels exceeds their capability or capacity to defend as a NATO 
facility, they are fully in keeping with the letter and spirit of the 
Atlantic Charter to request support from the Alliance.

    10. Senator Ayotte. Does the U.S. have spare Patriot capacity to 
deploy for the defense of these sites?
    General Breedlove. All DOD Patriot units and other Ballistic 
Missile Defense capabilities are concurrently committed to support 
multiple contingencies across several Combatant Commands. We in EUCOM 
are currently working closely with services and the Joint Staff under 
the leadership of OSD Policy (as required in the National Defense 
Authorization Act for Fiscal Year 2016, Section 1677: Missile Defense 
Capability in Europe) to review all potential capabilities which could 
be part of a defensive solution for emerging threats against the Aegis 
Ashore facilities.

    11. Senator Ayotte. Are there anti-air warfare capabilities 
intrinsic to Aegis ship-borne weapons systems that could be applied to 
Aegis Ashore sites to provide them self-defense against airborne 
threats without taking away defensive capability from other defended 
areas?
    General Breedlove. The current scope, configuration, and capability 
of the Aegis Ashore sites are bound by existing international treaty 
obligations and our bi-lateral agreements and arrangements with the 
Aegis Ashore host nations. Any adjustments of the Aegis Ashore weapon 
system need to be carefully reviewed to ensure the U.S. remains in 
compliance with these treaties, agreements, and arrangements.
    As required in the 2016 National Defense Authorization Act, EUCOM, 
in coordination with OSD Policy, the Joint Staff, and the services, is 
assessing what active and passive defense measures could be appropriate 
and adaptable to counter emerging threats against the Aegis Ashore 
facilities. Capabilities integrated into the Aegis combat system for 
surface ships could be part of the solution, but we need some time to 
assess what capability, against which threats, and under what 
circumstances to get the answer right.

    12. Senator Ayotte. Do you recommend that these systems be applied 
to the Aegis Ashore sites?
    General Breedlove.It is a bit premature for EUCOM to recommend one 
solution or another at this point in time. The question and problem are 
complex, and we need to make sure the approach is legal, proper, and 
appropriate. DOD is concerned in maintaining compliance with existing 
international treaty obligations and our agreements and arrangements 
with the Aegis Ashore host nations. USEUCOM, in coordination with OSD 
Policy, the Joint Staff, and the services, is assessing what active and 
passive defense measures across the entire portfolio of solutions could 
be appropriate and adaptable to counter emerging threats against the 
Aegis Ashore facilities. Capabilities integrated into the Aegis combat 
system for surface ships could be part of the solution, but we need 
some time to assess what capabilities, against which threats, and under 
what circumstances to get the answer right.
                u.s. military force protection in europe
    In your prepared statement, you state that, ``Similar to ISIL, al 
Qaeda and its affiliates in the Middle East, North Africa, and Asia, 
such as al Qaeda in the Arabian Peninsula and al Nusrah Front, possess 
the ability to conduct mass casualty attacks against U.S. and Allied 
personnel and facilities in Europe. Complicating this picture are self-
radicalized terrorists who, with little guidance from parent 
organizations, pose an unpredictable threat.''

    13. Senator Ayotte. Is EUCOM taking all appropriate and necessary 
force protection measures to ensure the safety of U.S. military 
personnel and their families stationed in Europe?
    General Breedlove. Yes, of course. US European Command continuously 
collaborates with the international intelligence community to ensure we 
have situational awareness regarding terrorism related indications, 
warnings and evolving threats throughout the theater. Our overall EUCOM 
force protection posture and our Country specific Force Protection 
Conditions are adjusted as appropriate based largely upon these 
information streams which are continuously evaluated through a network 
of local, component and theater level Threat Working Groups.
    Moreover, terrorists' tactics, techniques, and procedures, also 
known as `TTPs' tend to be very dynamic in nature. We monitor these 
`TTPs' as they develop to ensure that we can, in turn, develop and 
implement tailored anti-terrorism counter measures, providing the 
highest possible levels of security for our personnel and their 
families as they work, live and travel throughout the theater. Prudent 
and reasonable measures to safeguard and protect DOD personnel are in 
place. U.S. European Command has placed emphasis on hardening our 
installations, on lowering our off installation profiles, and on 
avoiding, in higher threat locations, public transit systems and other 
sites which have been targeted by terrorists in the past. We have also 
made it clear that leaders at all levels have a responsibility to 
scrutinize operations and travel within Europe while developing and 
implementing comprehensive strategies to mitigate risks for all 
missions and activities.
                             force posture
    14. Senator Ayotte. Not including the resources being provided 
under the European Reassurance Initiative, what additional Army, Navy 
and Air Force assets, capabilities, and personnel do you need?
    General Breedlove. [Deleted.]

    15. Senator Ayotte. What gaps most concern you?
    General Breedlove. As far as capability gaps, what concerns me the 
most is not having the full-time required presence of U.S. Army armored 
forces. I am optimistic that Congress will fully support the FY17 ERI 
request which will significantly help close this gap. Armored forces 
serve a dual purpose in the theater. First, their presence and 
availability helps assure Allies and affords the opportunity to enhance 
interoperability and participation in exercises. Second, trained and 
ready armored forces help to deter further Russian aggression in 
Europe.

    16. Senator Ayotte. Do you believe you need another Army brigade 
combat team permanently stationed in Europe?
    General Breedlove. EUCOM is aware of the National Commission on the 
Future of the Army's recommendation to station an Armored Brigade 
Combat Team (ABCT) in Europe and would welcome a discussion along these 
lines. Assigning and forward stationing forces provides many benefits 
such as: (1) increasing operational flexibility and responsiveness; (2) 
providing persistent presence for both EUCOM and combatant commands; 
(3) enhancing habitual relationships and interoperability with Allies 
and partners; (4) generating coalition partners; (5) setting the 
theater; (6) demonstrating U.S. resolve and commitment; (7) ensuring 
access and bases for global operations; (8) assuring partners and 
deterring adversaries; (9) enabling U.S. leadership of the NATO 
Alliance; and (10) decreasing costs associated with Operations and 
Maintenance and sustaining readiness.
                               __________
               Questions Submitted by Senator Tom Cotton
                        nato-russia founding act
    There are concerns that the Founding Act prohibits NATO from 
permanently stationing troops in Eastern Europe, but a recently 
released RAND study states that it will take seven brigades, including 
three heavily armored, to deter Russia from taking the Baltics in 60 
hours or less.

    17. Senator Cotton. Since Russia is arguably in violation of the 
Founding Act, why don't we permanently station forces in Eastern 
Europe?
    General Breedlove. The Department of Defense evaluates numerous 
factors, such as operational requirements, costs, force management, and 
Political-Military relationships, in their deliberations of permanently 
stationing or rotationally deploying forces to a Combatant Commander. 
Our current national policy is to abide with the NATO-Russia Founding 
Act, in spite of recent Russian aggression. Using rotational forces 
provides a level of assurance and deterrence without violating the 
NATO-Russia Founding Act.

    18. Senator Cotton. Will an armored brigade combat team 
sufficiently improve NATO's ability to respond?
    General Breedlove. Additional ABCT would significantly enhance the 
ability of the U.S. to assist NATO in the early days of a crisis. 
NATO's enhanced NRF currently consists of a multinational brigade at 
five to seven days notice-to-move, two additional Allied brigades at 30 
days notice-to-move, and the current U.S. rotational ABCT.
    From the two U.S. brigades currently assigned to the EUCOM AOR (2nd 
CR and 173rd ABN) and the rotational U.S. ABCT, the U.S. also maintains 
distributed persistent presence on the territory of the eight eastern 
trace Allies, leaving two consolidated and intact U.S. brigades to 
respond to a NATO crisis. An additional brigade would allow the U.S. to 
maintain the distributed assurance presence, while bolstering the size 
and readiness of the forces available on short notice. This would 
significantly increase the combat power of the forces NATO might expect 
to compliment the NRF in the early days of a crisis. It would also 
provide additional forces to participate in large scale deterrence 
focused exercises, while maintaining forward presence.

    19. Senator Cotton. Will the rotating unit deploy with their 
organic equipment and rolling stock or fall in on theater equipment?
    General Breedlove. EUCOM is aware of internal Army plans that may 
require rotational forces to deploy with their organic equipment should 
the equipment already postured in the theater be unavailable to them. 
Should Army units deploy with organic equipment, EUCOM believes there 
is both an assurance and deterrence benefit in that these deployments 
will demonstrate the ability to move entire units with their equipment 
from CONUS to Europe, assemble these forces in Europe, and move the 
units to forward training locations. Additionally, these initial 
deployments provide the theater with modernized armored equipment with 
its personnel as the Army modernizes an Armored Brigade Combat Team 
activity set for a future
deployment to the theater, after which personnel will fall in on this 
modernized equipment.

    20. Senator Cotton. If so, do you have any concerns about the 
strain this will place on the rotating force?
    General Breedlove. EUCOM is aware of internal Army plans that may 
require rotational forces to deploy with their organic equipment should 
the equipment already postured in the theater be unavailable to them. 
Should Army units deploy with organic equipment, EUCOM believes there 
is both an assurance and deterrence benefit in that these deployments 
will demonstrate the ability to move entire units with their equipment 
from CONUS to Europe, assemble these forces in Europe, and move the 
units to forward training locations. We are unaware of any concerns 
that the Army may have about the strain this would place on the 
rotating force. Additionally, these initial deployments provide the 
theater with modernized armored equipment with its personnel as the 
Army modernizes an Armored Brigade Combat Team activity set for a 
future deployment to the theater, after which personnel will fall in on 
this modernized equipment.

    21. Senator Cotton. Are you aware of any costing analysis on 
permanently stationing an ABCT in Europe?
    General Breedlove. EUCOM is aware of previous cost estimates 
regarding the permanent stationing of an ABCT in Europe but believes 
these estimates require an update based on changes to the force 
structure within an ABCT (units have expanded in size recently). For 
example, we understand GAO Report GAO-10-745R in 2010 indicated it 
would cost approximately $1B over 10 years to retain the two ABCTs that 
were in Europe at that time (or $50M per year for one ABCT). However, 
we are not familiar with the basis of this cost estimate and 
acknowledge the facilities to house these units are no longer 
available. We are unaware of any recent Army estimates regarding 
permanent stationing of an ABCT and how this would compare to a CONUS-
based rotational force deployment scheme.

    22. Senator Cotton. Id no, do you think the Army has drawn up a 
cost estimate for a permanent stationing?
    General Breedlove. EUCOM is aware of previous cost estimates 
regarding the permanent stationing of an ABCT in Europe but believes 
these estimates require an update based on changes to the force 
structure within an ABCT (units have expanded in size recently). For 
example, we understand GAO Report GAO-10-745R in 2010 indicated it 
would cost approximately $1B over 10 years to retain the two ABCTs that 
were in Europe at that time (or $50M per year for one ABCT). However, 
we are not familiar with the basis of this cost estimate and 
acknowledge the facilities to house these units are no longer 
available. We are unaware of any recent Army estimates regarding 
permanent stationing of an ABCT and how this would compare to a CONUS-
based rotational force deployment scheme.

    23. Senator Cotton. Where do rotational forces break even with a 
permanent basing model?
    General Breedlove. EUCOM is aware of previous cost estimates 
regarding the permanent stationing of an ABCT in Europe but believes 
these estimates require an update based on changes to the force 
structure within an ABCT (units have expanded in size recently). For 
example, we understand GAO Report GAO-10-745R in 2010 indicated it 
would cost approximately $1B over 10 years to retain the two ABCTs that 
were in Europe at that time (or $50M per year for one ABCT). However, 
we are not familiar with the basis of this cost estimate and 
acknowledge the facilities to house these units are no longer 
available. We are unaware of any recent Army estimates regarding 
permanent stationing of an ABCT and how this would compare to a CONUS-
based rotational force deployment scheme.

    24. Senator Cotton. Does the NATO-Russia Founding Act, signed in 
1997, have a formal agreed definition as to what constitutes 
``substantial'' forces?
    General Breedlove. The NATO Russia Founding Act does not have a 
definition of ``what constitutes substantial combat forces''. Further, 
there is no NATO-agreed definition of ``combat forces,'' 
``substantial'' or ``permanent stationing.''
                        electronic capabilities
    25. Senator Cotton. What electronic warfare capabilities would help 
you in EUCOM, and would it be helpful to speed up the acquisition 
process for electronic warfare?
    General Breedlove. [Deleted.]

    26. Senator Cotton. Given Russia's demonstrated capabilities in 
electronic warfare, should we accelerate the Army's program? At 
present, the Army will not have a long-range jammer until 2023.
    General Breedlove. [Deleted.]
                         europe based resources
    27. Senator Cotton. This summer, Turkey opened Incirlik Air Base to 
U.S. forces for use in Operation Inherent Resolve, which has great 
strategic benefits for the fight against the Islamic State, but how 
does it affect readiness in Europe?
    General Breedlove. Currently the only EUCOM forces supporting OIR 
from Incirlik Air Base are assigned to the 39th Air Base Wing and are 
conducting Base Operations Support duties. The unit is responsible for 
supporting and protecting U.S. and NATO assets operating from the base.
    Support requirements on the base have steadily increased since the 
summer of 2015, when U.S. manned aircraft began OIR operations from 
Incirlik and the terrorism threat continues to remain significant. The 
base is currently operating under Force Protection Condition Charlie 
plus additional measures from Force Protection Condition Delta; this is 
due to an assessed imminent but non-specific terrorist threat. 
Additional security forces have been deployed, but due to the recent 
nature of the deployments, there is no assessment as to long-term 
readiness affects.
    Since there are no other EUCOM forces currently directly supporting 
OIR, there has not been a measured negative affect on EUCOM readiness.

    28. Senator Cotton. For example, has the rotational deployment of 
F-16s from Aviano, Italy, F-15 Eagles and F-15 Strike Eagles from 
Lakenheath, UK, 6th Fleet naval resources and USAF ``Guardian Angels'' 
search and rescue crews from Europe for the OIR mission impacted 
readiness or deterrence in EUCOM's AOR?
    General Breedlove. The recent deployment of F-16s from Aviano, 
Italy, F-15 Eagles and F-15 Strike Eagles from Lakenheath, UK, 6th 
Fleet naval resources and USAF ``Guardian Angels'' search and rescue 
crews to Turkey in support of OIR did not negatively impact long-term 
readiness or deterrence in EUCOM's AOR.
    Although readiness is impacted anytime forces are deployed for real 
world operations, the recent support to OIR did not have long-term, 
negative impacts to EUCOM's readiness. The USAFE and NAVEUR staffs 
worked closely with EUCOM, the 31st Fighter Wing and the 48th Fighter 
Wing to meet OIR mission requirements while minimizing impacts to 
operational readiness. USAFE's Guardian Angels were already postured to 
support CENTCOM through the normal AEF tasking process, so their 
support to OIR did not change their already anticipated readiness 
level.

    29. Senator Cotton. How does this affect operational planning in 
EUCOM's AOR?
    General Breedlove. USEUCOM relies on a balance of forward-stationed 
and rotational forces to support NATO Assurance Measures, participate 
in NATO Response Force (NRF) Exercises, and to train with ally/partner 
nation forces in support of USEUCOM theater campaign objectives. 
Rotational forces complement, but do not substitute for USEUCOM 
assigned forces.
    Rotational forces provide additional presence and engagement with 
Allies and partners and fill steady state requirements that cannot be 
met by assigned forces. However, rotational forces cannot form the same 
habitual relationships or provide the same responsiveness or assurance 
to Allies and partners as US forces based in Europe.

    30. Senator Cotton. Should we find a way to implement these ERI 
programs faster than 6 months from now when Fiscal Year 2017 starts?
    General Breedlove. We of course cannot implement FY17 ERI proposals 
until they are actually approved; however, we are leaning forward now 
to make sure that implementation goes as quickly and effectively as 
possible. The Army is already exploring some options that would 
accelerate critical planning and design work related to a prepositioned 
equipment site along with expediting the delivery of Army Prepositioned 
Stocks equipment to the theater (which addresses a large portion of the 
FY17 request). Additionally, all of the services are collaborating with 
EUCOM in terms of planning the menu of training events and exercises to 
be carried out in FY17. There is some concern that a continuing 
resolution may delay the start of some new efforts in FY17 (similar to 
the delays experienced in FY15 which we were able to overcome), but 
with current FY16 budget constraints it would be difficult to begin 
some other new efforts now.
                               __________
             Questions Submitted by Senator Lindsey Graham
                       use of eagle vision system
    As you know, the Eagle Vision System is the only commercial mobile 
satellite ground station capable of providing rapid unclassified 
imagery to support domestic responses as well as to support our 
international partners globally.

    31. Senator Graham. During your tenure as Commander of EUCOM, have 
you ever requested to use this asset or capability to assist partners 
and allies in your area of responsibility?
    General Breedlove. [Deleted.]

    32. Senator Graham. If yes, what was the result of your request?
    General Breedlove. The only recent request was during the Ebola 
outbreak. We asked for imagery of the flooded area around the area of 
the Ebola outbreak to provide situational awareness of the environment 
and transient movement. However, Eagle Vision stated the request was 
too large with regards to the size of the imaging area, and therefore 
Eagle Vision was not be the ideal candidate to fulfill the request.
                               __________
            Questions Submitted by Senator Claire McCaskill
            european reassurance initiative funding request
    European Command is one of the smallest Combatant Commands in terms 
of personnel assigned to the headquarters and historically has served 
in a peaceful mission of maintaining relations with European allies and 
partners and seeing Russia as a strategic partner.

    33. Senator McCaskill. With today's Russian influence and 
aggression from multiple directions, increased requirements to reassure 
our European allies and partners, increased transnational terrorist 
threats, and increased migrant flows, is the headquarters postured 
appropriately in terms of size, shape, and type of personnel to execute 
the additional European Reassurance Initiative funds without incurring 
headquarter bloat?
    General Breedlove. The EUCOM component of ERI funds is relatively 
small in comparison to the funds that go directly to service accounts 
(e.g., EUCOM controls less than 5% of the FY16 ERI funds). I'm 
confident that my current headquarters staff will be able to provide 
appropriate oversight associated with the current and anticipated ERI 
funding that goes directly to the headquarters.
    In your written statement you mention the need to have equipment on 
station, or at least on the continent, in order to shorten the response 
time during a crisis. To store and maintain this equipment, you say 
existing locations will be used to the greatest extent possible, but 
that there may be a need to build new locations.

    34. Senator McCaskill. Since some of the European Reassurance 
Initiative funds are for construction and prepositioning assets would 
European Command be better served to have the funds in the base budget 
rather than the overseas contingency operations account?
    General Breedlove. EUCOM does not have a specific preference on 
where funds to adjust the theater to address the changed security 
environment reside. We recognize the challenges faced by the services 
to not only undertake one-time actions (e.g., construction projects) 
but also the increased sustainment requirement.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                  eastern european training initiative
    As you know, last year I worked with the leadership of this 
committee to provide EUCOM with additional flexibility in funding 
training to enhance the interoperability and capabilities of new NATO 
members and Partnership for Peace countries to defend against external 
and hybrid warfare threats.

    35. Senator Shaheen. How is EUCOM making use of this additional 
authority? Are there any changes that need to be made?
    General Breedlove. This new Section 1251 authority is helping our 
overall security cooperation efforts, and I thank you again for your 
leadership in making it a reality. So far, we have developed a 
recommended country eligibility list for OSD and DoS consideration and 
subsequent Congressional notification that includes Estonia, Latvia, 
Lithuania, Poland, Hungary, Slovak Republic, Romania, Bulgaria and 
Slovenia. We are working toward execution of the authority in the third 
quarter of FY16, leveraging already planned exercises and Operation 
ATLANTIC RESOLVE rotational forces.

    36. Senator Shaheen. You've mentioned several times about the need 
of our nation to use all elements of national power to deter further 
Russian aggression in Eastern Europe. I concerned about Russia's 
pervasive use of propaganda in Eastern Europe. What could we do to 
assist our NATO allies in combatting the pervasiveness of the Russian 
propaganda machine?
    General Breedlove. [Deleted.]
                               __________
             Questions Submitted by Senator Martin Heinrich
                        russia nuclear strategy
    Many foreign policy experts have suggested that Russia is in the 
midst of changing its nuclear strategy to a concept of de-escalatory 
nuclear strikes, or ``escalate to deescalate'' policy. This concept 
essentially means Russia would use small or tactical nuclear strikes in 
a conventional conflict to have opponents deescalate and submit to 
terms of peace.

    37. Senator Heinrich. Give us your assessment of Russia's 
willingness to pursue this doctrine, and the importance of NATO's and 
EUCOMs nuclear deterrence efforts.
    General Breedlove. [Deleted.]

    38. Senator Heinrich. Has NATO's nuclear posture changed at all 
since Russia has become increasingly aggressive in the region?
    General Breedlove. In short no. However, NATO's Nuclear Planning 
Group continually assesses the alliance's nuclear posture to account 
for changes in the security environment and Russian nuclear strategy. 
This on-going analysis continues ahead of the upcoming June 2016 NATO 
Defense Ministerial, with the results potentially influencing the July 
16 Summit, where representatives may address any potential changes to 
NATO's nuclear posture.

    39. Senator Heinrich. In your opinion should NATO's nuclear state 
of readiness be reviewed?
    General Breedlove. NATO's nuclear state of readiness is 
continuously monitored and evaluated. During the course of the year, 
NATO exercises and evaluates its theater nuclear capabilities and 
addresses key issues and challenges as needed. To maintain the proper 
level of deterrence and assurance, it is appropriate to maintain a 
close eye on our forces in order to test their responsiveness, 
flexibility, and ability to ensure safety, security, and effectiveness.
                             b61-12 program
    The US nuclear force is undergoing a modernization effort for all 
three legs of the nuclear triad. The B61-12 Life Extension Program 
(LEP) is one piece of that modernization effort and is important to 
Europe and deterrence in the region.

    40. Senator Heinrich. Can you tell us the importance of the 
modernization effort of the B6-12 LEP program, over the B61 gravity 
bomb, to the EUCOM AOR and its impact on stability and deterrence in 
the region?
    General Breedlove. Legacy B61 nuclear weapons require replacement 
of critical components to ensure the safety, security, and reliability 
of the weapon. The B61 LEP will extend the service life of the weapon, 
and consolidate multiple B61 variants into one modification. 
Additionally, it will ensure its functionality with U.S./NATO Dual 
Capable Aircraft, and the F-35, while making safety, security, and use 
control enhancements to maintain weapon confidence. The B61 LEP is 
critical to maintain the U.S. nuclear commitment to NATO and remains a 
cornerstone to NATO's deterrence and assurance mission.

    41. Senator Heinrich. How does the ability to dial-up or dial-down 
a warhead's nuclear yield contribute to our deterrent strategy in 
Europe?
    General Breedlove. [Deleted.]
                       foreign terrorist fighters
    Over 25,000 estimated foreign fighters have traveled to Syria to 
join Islamist terrorist groups--at least 4,500 of which are Westerners. 
As the ideal travel times are coming in spring and summer, the 
likelihood of foreign fighters to return to Europe would seem to only 
increase. In your submitted testimony you anticipate additional 
European terrorist attacks in the future.

    42. Senator Heinrich. How can we better share intelligence and 
identify ``lone wolf'' actors who seek to commit these heinous acts of 
terrorism?
    General Breedlove. [Deleted.]
                         nato defense spending
    The United States currently spends roughly 73 percent of NATO's 
essential
defense expenditures. In 2015, only five NATO members met the goal of 
spending
2 percent GDP on defense: the US, Estonia, Greece, Poland, and the UK. 
Many
criticisms have come from this arguing that European members are 
hollowing their defenses.

    43. Senator Heinrich. Are we seeing any changes in terms of 
Europe's commitment to defense spending in response to Russia's 
increased aggression in the region?
    General Breedlove. NATO Heads of State and Government agreed at the 
Wales Summit to ``aim to meet'' the NATO Guideline of 2% of GDP toward 
Defense Spending and the NATO Guideline to spend at least 20% of their 
defense budgets on major new equipment. There are some early positive 
signs that these downward trends are halting, if not reversing. Five 
Allies now meet the 2% target in 2015, compared to four in 2014. In 
2015, 16 Allies spent more on defense in real terms than they did in 
2014. Twelve Allies increased defense spending as a percentage of GDP 
in 2015. In 2015, 23 Allies increased the amount they are spending on 
new equipment, and 8 Allies met the NATO Guideline of committing more 
than 20% of their defense budgets to the purchase of new equipment.

    44. Senator Heinrich. What has the European response been to the 
$3.4 billion European Reassurance Initiative (ERI) in the FY17 budget 
request?
    General Breedlove. Not surprisingly, the President's announcement 
to increase his ERI submission to $3.4 billion was widely popular 
across all our NATO Allies. Nations see this as a credible contribution 
to the Alliance's collective defense commitment, and supportive of 
NATO's overall Readiness Action Plan to meet the emerging threat on the 
continent. There is quite a bit of anticipation on the ultimate 
location of our Army Preposition Sets, but our Allies understand the 
need for assessments to ensure maximum effectiveness and deterrent 
value.

    45. Senator Heinrich. What has the Russian response been to the 
$3.4 billion European Reassurance Initiative (ERI) in the FY17 budget 
request?
    General Breedlove. As expected, the open source response from 
Russia after the President's announcement was antagonistic. Alexander 
Grushko, the Russian Permanent Representative to NATO, declared that 
Russia was prepared to counter the ``confrontational patterns'' adopted 
by the U.S. and NATO. While the Russian government highlights that it 
feels threatened by new states entering NATO and the possibility that 
other states on its periphery would follow the same path, it fails to 
acknowledge its own aggression against those very nations. Similarly, 
Russia fails to acknowledge that its open and repeated threats and 
aggression against European nations demands a NATO response.
                   army armored brigade combat teams
    I am pleased to see the President's budget for FY17 calls for $3.4 
billion for the European Reassurance Initiative. This quadruples last 
year's budget request. It would also introduce a permanent presence of 
American forces in the Baltics, which is critical for providing 
tripwires against Putin's aggression.

    46. Senator Heinrich. Can you describe the current NATO presence in 
the Baltics and the impact that this rotational deployment of U.S. 
forces will have on our European allies?
    General Breedlove. NATO maintains a persistent presence in the 
Baltics as a sign of its collective defense commitments to include 
increased air, maritime and land forces with contributions from all 28 
Allies. One example of that commitment is the Trans-Atlantic Capability 
Enhancement and Training (TACET) Initiative. Germany, the United 
Kingdom, and the United States are co-lead nation on the TACET 
initiative to build capability and capacity in Estonia, Latvia, 
Lithuania, and Poland. Other contributing nations include Belgium, 
Canada, Czech Republic, Denmark, France, Italy, Luxembourg, 
Netherlands, Norway and Spain.
    Rotational U.S. deployments to the Baltics assure Allies of the 
continued U.S. commitment to NATO and to Article 5, increase Allied 
interoperability and readiness, and build partner capacity. The 
persistent presence of U.S. personnel in the Baltics demonstrates U.S. 
resolve and allows U.S. units to train regularly with Allied military 
forces. This persistent presence complements enhanced, joint combined 
exercises in the region, such as BALTOPS, SABER STRIKE, and TROJAN 
FOOTPRINT, which improve interoperability and readiness at the 
operational as well as tactical level. Most importantly, the year-round 
presence of an armored brigade combat team will improve the credible 
combat power of our deterrent forces in
Europe.

                                 <all>
</pre></body></html>
